APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-7594
VIRGINIA DEPARTMENT OF CORRECTIONS,
Petitioner – Appellee,
v.
RICHARD JORDAN; RICKY CHASE,
Respondents – Appellants.
STATE OF NEBRASKA; STATE OF ALABAMA;
STATE OF ARKANSAS; STATE OF ARIZONA;
STATE OF FLORIDA; STATE OF GEORGIA; STATE
OF IDAHO; STATE OF INDIANA; STATE OF
KANSAS; STATE OF LOUISIANA; STATE OF
MISSOURI; STATE OF NEVADA; STATE OF
OKLAHOMA; STATE OF SOUTH CAROLINA;
STATE OF SOUTH DAKOTA; STATE OF TEXAS;
STATE OF UTAH; STATE OF WYOMING,
Amici Supporting Appellee.
Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond. M. Hannah
Lauck, District Judge. (3:17-mc-00002-MHL)
1a

Argued: November 1, 2018

Decided: April 11, 2019

Before AGEE, KEENAN, and RICHARDSON, Circuit
Judges.
Affirmed by published opinion. Judge Richardson
wrote the opinion, in which Judge Agee and Judge
Keenan concurred.
ARGUED: James W. Craig, THE RODERICK &
SOLANGE MACARTHUR JUSTICE CENTER, New
Orleans, Louisiana, for Appellants. Margaret Hoehl
O’Shea, OFFICE OF THE ATTORNEY GENERAL OF
VIRGINIA, Richmond, Virginia, for Appellee. ON
BRIEF: Emily M. Washington, THE RODERICK &
SOLANGE MACARTHUR JUSTICE CENTER, New
Orleans, Louisiana; Christina Bonanni, William C.
Miller, PILLSBURY WINTHROP SHAW PITTMAN
LLP, Washington, D.C.; David M. Shapiro, Roderick &
Solange MacArthur Justice Center,
NORTHWESTERN PRITZKER SCHOOL OF LAW,
Chicago, Illinois, for Appellants. Mark R. Herring,
Attorney General, Victoria N. Pearson, Deputy
Attorney General, Toby J. Heytens, Solicitor General,
Matthew R. McGuire, Principal Deputy Solicitor
General, Michelle S. Kallen, Deputy Solicitor General,
OFFICE OF THE ATTORNEY GENERAL OF
VIRGINIA, Richmond, Virginia, for Appellee. Douglas
J. Peterson, Attorney General, James D. Smith,
Solicitor General, David A. Lopez, Deputy Solicitor
General, Ryan S. Post, Assistant Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
NEBRASKA, Lincoln, Nebraska; Steve Marshall,
2a

Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF ALABAMA, Montgomery, Alabama;
Leslie Rutledge, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF ARKANSAS, Little Rock,
Arkansas; Mark Brnovich, Attorney General, OFFICE
OF THE ATTORNEY GENERAL OF ARIZONA,
Phoenix, Arizona; Pamela Jo Bondi, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
FLORIDA, Tallahassee, Florida; Christopher M. Carr,
Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF GEORGIA, Atlanta, Georgia; Lawrence
G. Wasden, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF IDAHO, Boise, Idaho;
Curtis T. Hill, Jr., Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF INDIANA, Indianapolis,
Indiana; Derek Schmidt, Attorney General, OFFICE
OF THE ATTORNEY GENERAL OF KANSAS,
Topeka, Kansas; Jeff Landry, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
LOUISIANA, Baton Rouge, Louisiana; Joshua D.
Hawley, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF MISSOURI, Jefferson
City, Missouri; Adam Paul Laxalt, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
NEVADA, Carson City, Nevada; Mike Hunter,
Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF OKLAHOMA, Oklahoma City,
Oklahoma; Alan Wilson, Attorney General, OFFICE
OF THE ATTORNEY GENERAL OF SOUTH
CAROLINA, Columbia, South Carolina; Marty J.
Jackley, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF SOUTH DAKOTA, Pierre,
South Dakota; Ken Paxton, Attorney General, OFFICE
3a

OF THE ATTORNEY GENERAL OF TEXAS, Austin,
Texas; Sean D. Reyes, Attorney General, OFFICE OF
THE ATTORNEY GENERAL OF UTAH, Salt Lake
City, Utah; Peter K. Michael, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
WYOMING, Cheyenne, Wyoming, for Amici Curiae.
RICHARDSON, Circuit Judge:
Richard Jordan and Ricky Chase, both
Mississippi death-row inmates, have filed a federal
lawsuit challenging that state’s lethal-injection
procedures under the Eighth Amendment. As part of
discovery in that lawsuit, they served a subpoena on
the Virginia Department of Corrections (“VDOC”) that
sought documents and testimony about Virginia’s
execution practices. VDOC provided some documents
to Jordan and Chase and then moved to quash the
subpoena in district court. The district court granted
VDOC’s motion, finding that requiring VDOC to
provide any further response to the subpoena would
impose an undue burden. VDOC urges us to affirm on
the merits or, if it would not prevail on the merits,
because the subpoena infringes Virginia’s state
sovereign immunity.
As we explain below, we need not reach state
sovereign immunity given VDOC’s conditional
assertion of that defense. Instead, we affirm on the
merits. The district court reasonably found that
Jordan and Chase did not have a need for further
discovery from VDOC, a nonparty, that outweighed the
burdens the discovery would impose. The district court
4a

thus did not abuse its discretion in quashing the
subpoena.
I.
This appeal is ancillary to a civil action pending
in the Southern District of Mississippi. Jordan and
Chase, the plaintiffs in that action, challenge
Mississippi’s method of execution, which they claim
will cause them unnecessary physical pain. Mississippi
executes prisoners by lethal injection using a threedrug protocol that begins with the administration of an
anesthetic. At the start of the plaintiffs’ litigation, that
anesthetic was the drug pentobarbital; after the
identity of Mississippi’s pentobarbital supplier was
disclosed, the state had to replace pentobarbital with
another drug, midazolam. Mississippi’s loss of its
pentobarbital supplier was just one instance of a wellknown phenomenon in which drug suppliers, once
exposed to pressure from activists opposed to the death
penalty, refuse to supply drugs to state corrections
departments. See generally Glossip v. Gross, 135 S. Ct.
2726, 2733–34 (2015) (discussing this trend).
Jordan and Chase have mounted several attacks
on Mississippi’s execution practices. They argue that
Mississippi should use a one-drug protocol that
consists of a large dose of a single anesthetic, not a
three-drug protocol that uses an anesthetic followed by
other drugs. They also claim that midazolam should
not be used as the anesthetic in the three-drug
protocol, because it is inadequate to prevent pain
during execution. Jordan and Chase further challenge
5a

Mississippi’s use of drugs prepared by compounding
pharmacies that, in their view, lack meaningful
regulatory oversight. To prevail in their attacks,
Jordan and Chase must show “a feasible and readily
implemented alternative method of execution that
would significantly reduce a substantial risk of severe
pain and that the State has refused to adopt without
a legitimate penological reason.” Bucklew v. Precythe,
No. 17-8151, slip op. at 13 (U.S. Apr. 1, 2019) (citing
Glossip, 135 S. Ct. at 2737–38; Baze v. Rees, 553 U.S.
35, 52 (2008) (plurality opinion)).
Jordan and Chase have tried to meet this
burden, in part, by comparing Mississippi’s practices
to those of other states using lethal injection. Virginia
is one such state. Like Mississippi, Virginia carries out
executions using a three-drug protocol that includes
compounded midazolam. Like Mississippi, it
previously used pentobarbital in place of midazolam.
And like Mississippi, Virginia is eager to keep the
identity of its drug supplier secret, lest pressure from
death-penalty opponents cause the supplier to stop
providing the state with drugs for use in executions.
During discovery, Jordan and Chase served a
third-party subpoena on VDOC. The subpoena sought
both documents and testimony. The document requests
covered various topics relating to Virginia’s executions,
including how Virginia has obtained its execution
drugs. The testimony was sought under Federal Rule
of Civil Procedure 30(b)(6), which authorizes parties to
take testimony from entities like corporations and
government agencies. A Rule 30(b)(6) subpoena must
6a

identify the subject matter of the testimony sought;
the topics listed in Jordan and Chase’s Rule 30(b)(6)
request overlapped substantially with their document
requests.
In response to the subpoena, VDOC provided
Jordan and Chase with a number of documents, many
of which originated in prior litigation about Virginia’s
execution practices. The documents included labels
and certificates of analysis for Virginia’s execution
drugs, a redacted copy of Virginia’s agreement with
the compounding pharmacy that serves as Virginia’s
drug supplier, a redacted copy of VDOC’s execution
manual, and transcripts from evidentiary hearings in
the prior litigation. The transcripts included a
discussion of an episode in 2015 in which a VDOC
official drove to Texas to obtain pentobarbital from
Texas officials for use in a Virginia execution. VDOC
informed Jordan and Chase’s counsel that it was
willing to provide an additional affidavit to “fill in any
of the gaps,” but that it otherwise objected to the
subpoena and would move to quash if the parties could
not agree on how to narrow the scope of the subpoena.
J.A. 161.
No agreement was reached, and VDOC moved
to quash. VDOC argued that the subpoena sought
privileged material; unduly burdened Virginia, its
drug supplier, and the members of its execution team;1

1

Some documents that Jordan and Chase sought would
have revealed the identities of the people who carry out Virginia’s
executions. On appeal, Jordan and Chase claim that they are no

7a

and violated Virginia’s state sovereign immunity.
VDOC described the subpoena as an overbroad
“fishing expedition” into its execution practices, which
had limited (if any) relevance to Jordan and Chase’s
Mississippi lawsuit. J.A. 69–70. What is more, VDOC
argued, the outstanding requests in the subpoena
would reveal the identity of Virginia’s supplier of
execution drugs. As VDOC pointed out, that
information is normally kept confidential: Virginia
state law recognizes a qualified privilege for the
identity of execution-drug suppliers. Va. Code § 53.1234. Disclosing this information would not only
infringe on the drug supplier’s own interest in
confidentiality, VDOC argued, but also restrict
Virginia’s ability to carry out lawful executions by
chilling suppliers from providing execution drugs.
In response, Jordan and Chase argued that the
information they sought was relevant and that
disclosure would not impose a burden on VDOC. In
their view, they needed discovery from VDOC to show
the required “feasible and readily implemented”
alternative. Information about Virginia’s execution
drugs would be relevant (1) to evaluate Mississippi’s
claim that using pentobarbital is not a “feasible”
alternative because Mississippi cannot acquire
pentobarbital, and (2) to show the feasibility of the
one-drug protocol. Jordan and Chase also suggested
that Virginia might have evidence that the use of
midazolam in the three-drug protocol poses an
excessively high risk of suffering. In support of this
longer seeking that information.

8a

claim, they pointed to a 2017 execution that Virginia
officials carried out using midazolam, during which an
unusual 30-minute delay occurred. J.A. 225–26.
Jordan and Chase opposed Virginia’s argument that
there was a cognizable confidentiality interest in the
identity of its drug supplier. And even if there was,
they argued, a confidentiality order could protect it.
In a 42-page opinion, the district court granted
VDOC’s motion to quash because the requests imposed
an undue burden, without reaching the parties’
arguments on privilege and state sovereign immunity.
The court found that VDOC’s prompt responses had
provided much of the requested information.
Additional information was unlikely to be relevant to
the key issue: whether there is a safer, feasible
alternative to Mississippi’s execution method.
Virginia’s method was not really an “alternative” at
all. Like Mississippi, Virginia uses a three-drug
protocol that includes compounded midazolam. Nor
could Virginia’s experience be used to disprove
Mississippi’s claim that it could not obtain
pentobarbital: VDOC produced documents showing
that it, too, could not obtain pentobarbital. The district
court also rejected Jordan and Chase’s suggestion that
Virginia’s execution practices were flawed. Jordan and
Chase’s only evidence was the 30-minute delay during
the 2017 execution, which was not compelling proof
given Virginia’s well-documented history of
successfully using the three-drug protocol. The court
also noted that Jordan and Chase had failed to explain
what relevant information they could receive from
Mississippi officials, casting more doubt on their need
9a

for additional discovery from VDOC.
The district court also found that further
disclosure would burden Virginia’s ability to obtain
lethal-injection drugs. Many of the documents Jordan
and Chase sought would reveal the identity of
Virginia’s midazolam supplier, either directly or by
giving clues that could lead someone to uncover it.
Documents provided by VDOC show the sensitivity of
this information. In hearing transcripts from the prior
litigation, VDOC officials described how hard it was to
find a supplier of execution drugs. Only after Virginia
passed its confidentiality statute was VDOC able to
find a compounding pharmacy willing to supply it with
midazolam, and even then only with an agreement
promising to protect the supplier’s confidentiality. In
addition, the district court noted the pressure that
death-penalty opponents place on drug suppliers. So
the district court found that disclosing the identity of
the drug supplier would inhibit Virginia’s ability to
carry out lawful executions. And the district court
found that a confidentiality order would not
adequately alleviate this burden. The court also found
the subpoena overbroad for seeking information dating
back to 2010, far longer than reasonably necessary.
Based on all these considerations, the district
court found that the subpoena imposed an undue
burden and granted VDOC’s motion to quash.
Jordan and Chase timely appeal. Because the
court below denied nonparty discovery in an ancillary
proceeding where the underlying action is pending in
10a

another circuit, we have appellate jurisdiction under
the collateral-order doctrine. Nicholas v. Wyndham
Int’l, Inc., 373 F.3d 537, 541 (4th Cir. 2004).
II.
At the outset, we must determine the proper
order of decision: do we start with VDOC’s state
sovereign immunity argument or the merits? We
conclude that we should start with the merits.
Courts must generally decide jurisdictional
issues first. That is certainly true of subject matter
jurisdiction: courts must always assure themselves of
subject matter jurisdiction before reaching the merits,
even if the parties have not raised it. See Arbaugh v.
Y&H Corp., 546 U.S. 500, 514 (2006). It is also true of
personal jurisdiction: even though personal
jurisdiction may be waived, if it is timely raised, it too
takes priority over the merits. Sinochem Int’l Co. v.
Malaysia Int’l Shipping Corp., 549 U.S. 422, 430–31
(2007). The Supreme Court has cautioned against
exceptions that allow courts, for reasons of expedience,
to sidestep jurisdictional issues. Most notably, in Steel
Co. v. Citizens for a Better Environment, 523 U.S. 83
(1998), the Court overturned the practice of exercising
“hypothetical jurisdiction” to reach the merits first
when the merits question was easy and the
jurisdictional question was hard. Id. at 93–94.
State sovereign immunity should also, at least
in principle, have priority over merits issues. It too is
a jurisdictional doctrine, although a singular one that
11a

is somewhat of a hybrid between subject matter and
personal jurisdiction. Wisconsin Dep’t of Corr. v.
Schacht, 524 U.S. 381, 394 (1998) (Kennedy, J.,
concurring); Caleb Nelson, Sovereign Immunity as a
Doctrine of Personal Jurisdiction, 115 HARV. L. REV.
1559, 1609–11 (2002). Like other constitutional
limitations on our subject matter jurisdiction, “the
fundamental principle of sovereign immunity limits
the grant of judicial authority,” Pennhurst State Sch.
& Hosp. v. Halderman, 465 U.S. 89, 98 (1984), and is
not forfeited by inattention at the trial level, meaning
it can be raised for the first time on appeal, Edelman
v. Jordan, 415 U.S. 651, 677–78 (1974). Yet state
sovereign immunity is unlike subject matter
jurisdiction, and like personal jurisdiction, in that it
can be affirmatively waived, see Lapides v. Bd. of
Regents of Univ. Sys. of Georgia, 535 U.S. 613, 618
(2002), and need not be raised by the court on its own
motion, see Patsy v. Board of Regents, 457 U.S. 496,
515–16 n.19 (1982).
The Supreme Court has therefore recognized
that sovereign immunity must generally be decided
first, but with an exception: courts may instead begin
by asking if a statutory cause of action can, under the
statute itself, ever be asserted against a state.
Vermont Agency of Nat. Res. v. United States ex rel.
Stevens, 529 U.S. 765, 779 (2000). There are two
reasons for this exception. First, a statute that does
not permit suits against a state does not implicate the
Eleventh Amendment, and so the statutory question is
“logically antecedent” to the constitutional one. Id.
Second, the exception is limited to the threshold,
12a

categorical question of whether a cause of action exists
against a state; it does not permit adjudication of
whether the particular facts alleged describe a
violation of the statute. For that reason, the exception
“does not, as a practical matter, permit the court to
pronounce upon any issue, or upon the rights of any
person, beyond the issues and persons that would be
reached under the Eleventh Amendment inquiry
anyway.” Id.
Our precedents have identified another
exception for cases when a state asserts its sovereign
immunity only conditionally. If the state does not
“insist” on its sovereign immunity defense, but uses it
only as a backstop to prevent a defeat on the merits,
we may affirm on the merits alone. Strawser v. Atkins,
290 F.3d 720, 729–30 (4th Cir. 2002) (alternative
holding). We have grounded this exception in part in
the principle of constitutional avoidance, which
counsels against reaching state sovereign immunity
where it is unnecessary. Id. at 730. To be sure, one
might question whether this exception is in keeping
with the spirit of the Supreme Court’s opinions in Steel
Co. and Vermont Agency. But we are bound by our
precedents, which have concluded that it is. See
Constantine v. Rectors & Visitors of George Mason
Univ., 411 F.3d 474, 479–83 (4th Cir. 2005); Strawser,
290 F.3d at 729–30; see also McClendon v. Georgia
Dep’t of Cmty. Health, 261 F.3d 1252, 1258–59 (11th
Cir. 2001) (adopting same exception for “conditional”
assertions of immunity).
The exception applies to VDOC’s conditional
13a

assertion of state sovereign immunity here. At oral
argument, VDOC first insisted that we reach state
sovereign immunity. Because this Circuit has not
addressed whether a subpoena issued against a
nonparty state agency—not merely a state
official—runs afoul of that state’s sovereign immunity,
we ordered supplemental briefing. VDOC then
backpedaled in its supplemental brief, withdrawing its
prior insistence and stating that it would be content
with a victory on the merits. VDOC’s final answer
controls, and so the exception applies.
As we explain below, the merits favor VDOC. So
we bypass state sovereign immunity.
III.
We now turn to the merits of the motion to
quash. District courts enjoy “considerable discretion in
overseeing discovery,” and we will disturb a district
court’s discovery rulings only if we find an abuse of
that discretion. Kolon Indus. Inc. v. E.I. DuPont de
Nemours & Co., 748 F.3d 160, 172, 178 (4th Cir. 2014).
In applying the abuse-of-discretion standard, we
review the district court’s factual conclusions for clear
error and its legal conclusions de novo. In re Grand
Jury Subpoena, 870 F.3d 312, 316 (4th Cir. 2017).
Here, the district court quashed the subpoena after
determining it imposed an undue burden. Finding no
abuse of discretion, we affirm.
A.

14a

All civil discovery, whether sought from parties
or nonparties, is limited in scope by Rule 26(b)(1) in
two fundamental ways. First, the matter sought must
be “relevant to any party’s claim or defense.” Fed. R.
Civ. P. 26(b)(1). Relevance is not, on its own, a high
bar. There may be a mountain of documents and
emails that are relevant in some way to the parties’
dispute, even though much of it is uninteresting or
cumulative. Rule 26 therefore imposes another
requirement: discovery must also be “proportional to
the needs of the case.” Id. Proportionality requires
courts to consider, among other things, “whether the
burden or expense of the proposed discovery outweighs
its likely benefit.” Id. This relieves parties from the
burden of taking unreasonable steps to ferret out every
relevant document.
When discovery is sought from nonparties,
however, its scope must be limited even more.
Nonparties are “strangers” to the litigation, and since
they have “no dog in [the] fight,” they have “a different
set of expectations” from the parties themselves.
Cusumano v. Microsoft Corp., 162 F.3d 708, 717 (1st
Cir. 1998). Bystanders should not be drawn into the
parties’ dispute without some good reason, even if they
have information that falls within the scope of party
discovery. For example, a party’s email provider might
well possess emails that would be discoverable from
the party herself. But unless the email provider can
offer important information that cannot be obtained
from the party directly, there would be no cause for a
subpoena against the provider.

15a

A more demanding variant of the
proportionality analysis therefore applies when
determining whether, under Rule 45, a subpoena
issued against a nonparty “subjects a person to undue
burden” and must be quashed or modified. Fed. R. Civ.
P. 45(d)(3)(A)(iv). As under Rule 26, the ultimate
question is whether the benefits of discovery to the
requesting party outweigh the burdens on the
recipient. In re Modern Plastics Corp., 890 F.3d 244,
251 (6th Cir. 2018); Citizens Union of N.Y.C. v. Att’y
Gen. of N.Y., 269 F. Supp. 3d 124, 138 (S.D.N.Y. 2017).
But courts must give the recipient’s nonparty status
“special weight,” leading to an even more “demanding
and sensitive” inquiry than the one governing
discovery generally. In re Public Offering PLE
Antitrust Litig., 427 F.3d 49, 53 (1st Cir. 2005).
Without exhaustively listing the considerations
that go into this analysis, we note a few that are
important here. On the benefit side of the ledger,
courts should consider not just the relevance of
information sought, but the requesting party’s need for
it. See Wiwa v. Royal Dutch Petrol. Co., 392 F.3d 812,
818 (5th Cir. 2004). The information sought must
likely (not just theoretically) have marginal benefit in
litigating important issues. (We mean “marginal” in
the economic sense that the information must offer
some value over and above what the requesting party
already has, not in the sense that a mere de minimis
benefit will suffice.) Courts should also consider what
information is available to the requesting party from
other sources. See 9A CHARLES ALAN WRIGHT &
ARTHUR R. MILLER, FEDERAL PRACTICE &
16a

PROCEDURE § 2463.1, at 501–06 (3d ed.2008).To that
end, the requesting party should be able to explain
why it cannot obtain the same information, or
comparable information that would also satisfy its
needs, from one of the parties to the litigation—or, in
appropriate cases, from other third parties that would
be more logical targets for the subpoena.2
On the burden side, district courts should of
course consider the dollars-and-cents costs associated
with a large and demanding document production. But
there are other cognizable burdens as well. For
example, a subpoena may impose a burden by invading
privacy or confidentiality interests. See Modern
Plastics, 890 F.3d at251–52; In re Missouri Dep’t of
Corr., 839 F.3d 732, 736–37(8th Cir. 2016); Fappiano
v. City of New York, 640 F. App’x 115, 121 (2d Cir.
2016).3 Courts may consider the interests of the
recipient of the subpoena, as well as others who might
be affected. The text of Rule 45 makes that clear,
encompassing burdens on any “person,” not just the
recipient of the subpoena. Fed. R. Civ. P.

2

We do not mean to imply that, on a motion to quash, the
requesting party bears the burdens of proof and of persuasion. The
moving party bears those burdens. See Wiwa, 392 F.3d at 818.
But they are not terribly difficult burdens to meet if the
requesting party cannot articulate its need for the information
and address obvious alternative sources.
3

The text of Rule 26 confirms that “burden” means more
than the financial costs of compliance: it speaks of the “burden or
expense” of discovery, Fed. R. Civ. P.26(b)(1), which implies that
these terms are not coextensive.

17a

45(d)(3)(A)(iv). For example, if a subpoena seeks
information from a business about its customers, it
may implicate the business’s interest in protecting
competitively sensitive information, as well as the
customers’ interest in protecting their privacy, see
Modern Plastics, 890 F.3d at 251–52. Another type of
burden arises when a subpoena is overbroad—that is,
when it seeks information beyond what the requesting
party reasonably requires. See Wiwa, 392 F.3d at 818.
A nonparty should not have to do the work of tailoring
a subpoena to what the requesting party needs; the
requesting party should have done that before serving
it.4
B.
These factors appropriately led the district court
to conclude that any further production by VDOC
would impose an undue burden. In framing its
analysis, the district court properly considered the fact
that VDOC had produced responsive documents. That
production addressed, at least to some degree, most of
the document requests and deposition topics. We see
no error in that finding. Thus, the issue was whether

4

Mere overbreadth, of course, usually warrants modifying
a subpoena to narrow its scope, not quashing it. See, e.g., Wiwa,
392 F.3d at 820–21. In a case like this one, where the recipient
has already provided a substantial response, “quashing” the
subpoena effectively narrows it by limiting it to what has already
been produced. A subpoena may be so sweepingly overbroad,
however, that it should be quashed in its entirety. See, e.g., In re
Subpoena Duces Tecum to AOL, LLC, 550 F. Supp. 2d 606, 612
(E.D. Va. 2008).

18a

providing the documents and testimony that remained
outstanding—assuming they satisfied Rule 26’s
threshold relevance requirement—would create an
undue burden.
We begin with the asserted need for the
information. Jordan and Chase advanced three
theories below for how the documents might bolster
their case. First, they claimed that information about
actual or potential drug suppliers might undercut
Mississippi’s defense that it could no longer acquire
pentobarbital. Second, they argued, VDOC might have
internal documents discussing the feasibility of a onedrug protocol. Third, because Virginia’s execution
protocol supposedly has flaws (as revealed by alleged
missteps during a 2017 execution), VDOC’s documents
might show that Mississippi’s similar three-drug
protocol poses a substantial risk of serious harm. On
appeal they add a fourth, alternative theory: if
Virginia’s execution practices are in fact sound, they
can be held up against Mississippi’s practices to show
that the latter are flawed.
The district court rejected all of these theories,
finding it unlikely that VDOC would have useful
information under any of them. We find its conclusions
reasonable. First, VDOC had already provided
documents showing that it, like Mississippi, could not
obtain pentobarbital and had been unable to do so for
several years. Additional documents confirming this
fact would be of little value. Second, VDOC was an
unlikely source of helpful information about a singledrug protocol, because VDOC did not use that protocol
19a

and never had. Third, the district court reasonably
rejected Jordan and Chase’s factual claim that
Virginia’s execution practices were flawed, citing
Virginia’s long history of using a three-drug protocol
successfully. The district court also anticipated Jordan
and Chase’s alternative argument that VDOC might
have helpful evidence about procedural safeguards
that Mississippi lacked. The court noted that VDOC
had produced its execution manual and testimony
describing drug storage and testing; Jordan and Chase
failed to explain what other information they needed.
Even if VDOC might have additional, helpful
evidence on any of these fronts, Jordan and Chase
have never explained why VDOC is an appropriate
source given the alternatives. As the district court
noted, Jordan and Chase “have been particularly
opaque as to why the VDOC, a nonparty to the
underlying action, is a better source of information
than the Mississippi DOC.” J.A. 26. Even on appeal,
they have provided little insight into what information
Mississippi has provided or why it is inadequate.
There are also obvious third-party alternatives.
Evidence showing the feasibility and safety of a singledrug protocol could be sought more readily from states
that actually use single-drug protocols. Similarly,
information about the episode in which Texas officials
provided pentobarbital could be sought from them.
Jordan and Chase’s failure to address these issues is
a mystery, given that they have served subpoenas
seeking similar discovery from other state
governments.
20a

Jordan and Chase try to bolster their arguments
by analogizing to products-liability cases in which
plaintiffs have taken third-party discovery from the
defendants’ competitors about products with safer
alternative designs. That information was arguably
relevant because, in at least some jurisdictions, a
plaintiff bringing a design-defect claim must show that
a reasonable alternative exists. See Restatement
(Third) of Torts: Products Liability § 2 (Am. Law Inst.
1988). But this analogy presupposes that Virginia’s
execution practices represent a relevant, safer
“alternative.” In fact, Virginia and Mississippi use
similar three-drug execution protocols, and Jordan and
Chase have provided nothing, apart from conjecture, to
suggest that Virginia’s practices are different or safer.
Even if Virginia’s execution practices were marginally
better than Mississippi’s, that alone would not make
Virginia a relevant point of comparison. Jordan and
Chase must prove there is a feasible alternative
procedure that “significantly reduce[s] a substantial
risk of severe pain,” a standard not satisfied “merely by
showing a slightly or marginally safer alternative.”
Baze v. Rees, 553 U.S. 35, 51–52 (2008) (plurality
opinion) (emphases added); see also Bucklew v.
Precythe, No. 17-8151, slip op. at 23 (U.S. Apr. 1, 2019)
(holding that “the difference must be clear and
considerable”).
The analogy to the products-liability
context—like many of Jordan and Chase’s
arguments—also operates at an excessively high level
of generality. It is not tethered close enough to the
facts to show why these plaintiffs in this case should
21a

get additional discovery from VDOC. When framed at
such a high level of abstraction, the argument proves
too much. It would, if accepted, entitle every plaintiff
in every death-penalty challenge to extensive discovery
from every state that conducts executions. Such
freewheeling nonparty discovery would improperly
turn district courts into “boards of inquiry charged
with determining ‘best practices’ for executions,” Baze,
553 U.S. at 51 (plurality opinion), which they are not.
On the other side of the ledger, the district court
properly considered two burdens that these requests
would impose. First, the district court found the
subpoena overbroad for seeking information dating
back to 2010. The court concluded that the documents
provided already offered “a full picture of how the
VDOC currently carries out an execution,” J.A. 44–45,
and that the older information would not “advance
[Jordan and Chase’s] underlying Eighth Amendment
claim,” J.A. 45. By failing to tailor their subpoena to
their needs, Jordan and Chase imposed a burden on
VDOC, which had to do the tailoring itself. We find no
error in the district court’s conclusion on this point,
which Jordan and Chase hardly challenge on appeal.
Second, the district court reasonably found that
both VDOC and its drug supplier would be burdened
by the disclosure of the supplier’s identity, which most
of the outstanding requests sought to uncover. This
would harm the supplier’s own confidentiality interest,
one recognized by Virginia law. It would also impede
Virginia’s ability to carry out executions by chilling
Virginia’s current drug supplier, as well as potential
22a

future suppliers, from providing drugs for executions.
Here, the district court’s findings properly rested on
Virginia’s history of difficulties in finding a drug
supplier, as well as the fact that death-penalty
opponents have pressured drug suppliers in an effort
to halt executions. In recognizing that both states and
execution-drug suppliers have a legitimate interest in
keeping suppliers’ identities confidential, we follow
several of our sister circuits. See In re Missouri Dep’t
of Corr., 839 F.3d at 736–37 (reversing, on writ of
mandamus, district court’s decision to allow discovery
of execution-drug supplier); Arthur v. Commissioner,
Alabama Dep’t of Corr., 840 F.3d 1268, 1304–05 (11th
Cir. 2016) (upholding district court’s decision to
require disclosure of general facts about drug
suppliers, but not their names); In re Ohio Execution
Protocol Litig., 845 F.3d 231, 237–38 (6th Cir. 2016)
(upholding district court grant of protective order
denying plaintiff discovery of drug suppliers’
identities); In re Lombardi, 741 F.3d 888, 894–96 (8th
Cir. 2014) (reversing, on writ of mandamus, district
court decision to allow discovery of identities of drug
supplier, testing lab, and prescribing physician).
Jordan and Chase respond, in part, by arguing
that the cost of compliance would be low because the
documents they seek are not so voluminous. But as we
have already explained, the expense of collecting,
reviewing, and producing documents is not the only
burden cognizable under Rule 45. The overbreadth and
confidentiality concerns identified by the district court
also represent cognizable burdens under Rule 45.

23a

In sum, the district court did not abuse its
discretion in finding that Jordan and Chase had little,
if any, demonstrated need for the additional
documents requested; that they failed to explain why
the same or similar information could not be had from
better, alternative sources; and that the subpoena
imposed cognizable burdens on VDOC and its drug
supplier—both nonparties to the litigation. And those
considerations, taken together, supported the district
court’s finding that the burdens of further compliance
with the subpoena outweighed its benefits.
C.
Jordan and Chase alternatively argue that,
assuming the district court properly found an undue
burden grounded in the need to protect the drug
supplier’s identity, it erred by quashing the subpoena
outright. They claim the district court instead should
have permitted the requested discovery subject to an
order requiring the parties to keep the materials
confidential. And disclosure subject to a confidentiality
order, if feasible, is generally preferable to an outright
denial of discovery. Yet the district court considered
the issue and concluded that such an order would not
have adequately protected the confidentiality interests
at stake. We find no abuse of discretion in that
decision.
As courts have recognized, sometimes “even the
most rigorous efforts of the recipient of [sensitive]
information to preserve confidentiality in compliance
with the provisions of such a protective order may not
24a

prevent inadvertent compromise.” In re Deutsche Bank
Tr. Co. Americas, 605 F.3d 1373, 1378 (Fed. Cir. 2010).
“[I]t is very difficult for the human mind to
compartmentalize and selectively suppress
information once learned, no matter how wellintentioned the effort may be to do so.” Id. (alteration
in original) (quoting FTC v. Exxon Corp., 636 F.2d
1336, 1350 (D.C. Cir. 1980)). In particular, “‘extremely
potent’ confidential information” may be “of such a
nature that it would be ‘humanly impossible’ to control
its inadvertent disclosure.” Id. (quoting U.S. Steel Co.
v. United States, 730 F.2d 1465, 1467 (Fed. Cir. 1984)).
The information in question—the identity of
Virginia’s supplier of execution drugs—is certainly
potent. The provision of execution drugs has become a
flash point in the ongoing debate over the death
penalty, which has long been a contentious issue.
Jordan and Chase’s lawyers, advocates trying to
prevent their clients’ executions, might find it
challenging to keep that information confidential while
adhering to their duty of zealous representation. Broad
disclosure could easily result from the very act of
litigating their case, perhaps from counsel’s
investigation of the supplier, or perhaps from the
introduction of evidence about the supplier at trial. See
In re Missouri Dep’t of Corr., 839 F.3d at 737. There is
also good reason to think that a confidentiality order
would not serve its intended purpose. The goal of the
order would be to avoid a chilling effect on Virginia’s
drug supplier and other, potential suppliers. Yet a
drug supplier would probably take little comfort in
knowing that disclosure was limited to death-row
25a

inmates and their lawyers.
Based on these considerations, the district court
reasonably concluded that a confidentiality order
would not be up to the task of protecting the interests
of Virginia and its drug supplier. The district court
therefore did not abuse its discretion in quashing the
subpoena outright.
D.
Jordan and Chase make one final argument.
They claim that, even if the district court properly
quashed their document requests, it should have
permitted them to take deposition testimony under
Rule 30(b)(6). The same undue-burden standard
“applies to both document and testimonial subpoenas.”
Watts v. SEC, 482 F.3d 501, 508 (D.C. Cir. 2007).
Thus, the question is whether Jordan and Chase’s
need for a Rule 30(b)(6) deposition outweighs the
burden and expense of having one, given the
documents VDOC already provided.
There are two possible arguments in support of
the Rule 30(b)(6) deposition. The first is that a
deposition would provide additional useful information
beyond what the documents themselves provide. Yet
Jordan and Chase have simply failed to explain what
that information might be. That failure is particularly
glaring given the unique characteristics of Rule
30(b)(6) depositions. Rule 30(b)(6) deponents testify on
behalf of entities, not themselves, and often do so
based on careful advance preparation, not personal
26a

knowledge. See, e.g., Ecclesiastes 9:10-11-12, Inc. v.
LMC Holding Co., 497 F.3d 1135, 1146–47 (10th Cir.
2007); Brazos River Auth. v. GE Ionics, Inc., 469 F.3d
416, 433 (5th Cir. 2006). If VDOC’s document
production has already provided the substantive
information Jordan and Chase are entitled to, then a
Rule 30(b)(6) deponent would likely just repeat that
same information in some testimonial form.
The second argument is that a Rule 30(b)(6)
deposition is necessary to obtain evidence in a form
admissible at trial. Here, Jordan and Chase point to
the transcripts that VDOC provided. These transcripts
capture the testimony of three state employees in prior
litigation about Virginia’s execution practices. Jordan
and Chase complain that the transcripts may not be
admissible in the Mississippi litigation. We find this
speculative argument uncompelling. Jordan and Chase
do not represent that they intend to use this testimony
at trial, or that the defendants would object to its
admissibility.
Moreover, Jordan and Chase did not argue in
the proceedings below that they needed live testimony
to obtain important information or admissible
evidence. So the district court did not abuse its
discretion by analyzing the document requests and
deposition topics together.
IV.
Nonparties faced with civil discovery requests
deserve special solicitude. They should not be drawn
27a

into the parties’ dispute unless the need to include
them outweighs the burdens of doing so, considering
their nonparty status. This undue-burden analysis
must be conducted based on the concrete facts and
issues in the litigation, not on vague generalities or
speculation. This district court reasonably determined
that Jordan and Chase’s request for more discovery
from VDOC was unsupported by a genuine need that
outweighed the burdens involved. Because the district
court did not abuse its discretion, the order is
AFFIRMED.

28a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
IN RE: VIRGINIA DEPARTMENT
OF CORRECTIONS
Petitioner,
v.

Civil Action No. 3:17mc02

RICHARD JORDAN and
RICKY CHASE, et al.
Respondents.
MEMORANDUM OPINION
This matter comes before the Court on the
Motion to Quash the third-party Notice of Deposition
and Subpoena issued in Jordan v. Fisher, (S.D. Miss.).1
Neither party requested a hearing on the matter. For
the reasons that follow, the Motion to Quash will be
GRANTED to the extent it seeks information beyond
that already disclosed.
I. Pertinent Procedural Background

1

Jordan v. Fisher, 3:15-CV-295-HTW-LRA (S.D. Miss.)

29a

Mississippi sentenced Richard Jordan and Ricky
Chase to death. Mississippi proposes to execute Jordan
and Chase by the serial intravenous injection of three
drugs: midazolam, vecuronium bromide, and
potassium chloride. Jordan and Chase ("Plaintiffs")
filed a civil rights action under 42 U.S.C. § 19832
asserting that execution under the above protocol
violates the Eighth Amendment.3 "To prove this
protocol violates the Eighth Amendment, Jordan and
Chase must show (1) that the Mississippi protocol
raises a substantial risk of serious harm and (2) that
there is a known, available alternative to the
Mississippi protocol which reduces this risk. Glossip v.
Gross, 135 S. Ct. 2726, 2738 (2015)." (Resp. Opp'n 1,
ECF No. 12.)
The underlying challenge to Mississippi's
method of execution continues the impassioned debate

2

That statute provides, in pertinent part:

Every person who, under color of any
statute ... of any State ... subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law ....
42 U.S.C. § 1983.
3

"Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted." U.S.
Const. amend. VIII.

30a

regarding where the contours of the Eighth
Amendment's prohibition of cruel and unusual
punishment lie when a state ultimately implements a
death sentence. This opinion must address, in detail,
the method by which a death sentence may be
imposed.4 Here, Jordan and Chase dispute the threedrug lethal injection protocol Mississippi uses. The
inmates seek discovery from the Virginia Department
of Corrections ("VDOC") which they contend relates to
their constitutional challenge to Mississippi's methodof-execution protocol.
A.

Two
Courts
Have Quashed
Subpoenas from Plaintiffs When
Plaintiffs Sought Materials from
Single-Drug Protocol States

Prior to this motion, Plaintiffs sought
information from two other states in addition to

4

Many challenges to the death penalty involve distasteful
analyses: either an objective discussion of the vile crimes that
often undergird an imposition of a death sentence, or analysis in
explicit detail-past or potential-of the execution method imposed.
"Certainly some jurists have questioned the constitutionality of
the death penalty ... [y]et the law remains valid," In re Ohio
Execution Protocol Litigation, 845 F.3d 231, 240 (6th Cir. 2016),
cert denied, sub nom. Fears v. Kasich, No. 17-5010, 2017 WL
2854622 (U.S. Oct. 2, 2017), and courts must recognize "society's
compelling interest in finding, convicting, and punishing those
who violate the law." Moran v. Burbine, 475 U.S. 412,426 (1986);
see Brooks v. Warden, 810 F.3d 812,825 (11th Cir.) (noting that
the state, a victim, and the victim's family "have an important
interest in the timely enforcement" of a lawful sentence), cert
denied, 136 S. Ct. 979 (2016).

31a

Mississippi itself.5 Both of those third-party subpoenas
have been quashed entirely. First, Jordan and Chase
served upon the Missouri Department of Corrections
("MDOC") "a third-party subpoena for documents and
a Federal Rule of Civil Procedure ... 30(b)(6) deposition
notice seeking information regarding MDOC's use of
pentobarbital in lethal injections, including the
identity of MDOC's supplier of pentobarbital." In re
Mo. Dep't of Corr., 839 F.3d 732, 734 (8th Cir. 2016),
cert. denied, sub nom. Jordan v. Mo. Dep't of Corr., 137
S. Ct. 2180 (2017). The United States Court of Appeals
for the Eighth Circuit ultimately granted MDOC' s
writ of mandamus prohibiting the discovery "on the
grounds of relevancy and undue burden." Id at 737.
In Missouri, the district court had found that
information as to the use of pentobarbital as a single
drug might be relevant to the Plaintiffs' quest to
establish a feasible and readily implemented
alternative. But the Eighth Circuit ultimately ruled
the request to be irrelevant and unduly burdensome.
Based on a record expanded beyond that of the district
court, the Eighth Circuit concluded that the release of
the drug supplier's identity would result in the
supplier "refusing to make pentobarbital available to
anyone," id. at 736, meaning that discovery of the
supplier's name would result in its identity becoming
irrelevant to all method of execution claims because
the company would no longer supply to Missouri,

5

The Plaintiffs fail to identify what, if any, information
they have obtained in discovery from the state of Mississippi in
the underlying civil rights action.

32a

Mississippi, or any state. And, the court concluded,
Missouri would consequently suffer an undue burden
on its interest in "exercising its sovereign power to
enforce criminal law." Id (quoting In re Blodgett, 502
U.S. 236, 239 (1992)).
Second, Plaintiffs served upon the Georgia
Department of Corrections ("GDOC") a third-party
subpoena seeking a deposition and documents related
to executions in Georgia. Ga. Dep't Corr. v. Jordan,
1:16--cv--02582-RWS-JCF, at 1 (N.D. Ga. Oct. 20, 2016)
(ECF No. 12-9).6 The GDOC uses a single drug,
pentobarbital, to carry out its executions. Id. at 2.
Plaintiffs sought "to secure discovery from GDOC
concerning (a) whether pentobarbital is available, (b)
the factors which went into GDOC's decision to switch
from a three-drug protocol to a single-drug protocol,
and (c) whether a single-drug protocol is a feasible
alternative method of execution." Id. The GDOC
asserted, inter alia, that the information sought was
protected by Georgia's Lethal Injection Secrecy Statute
and moved to quash the third-party subpoena.7 Id. at 4.

6

The Court employs this abbreviation in the quotations
that refer to the GDOC.
7

That statute provides, in pertinent part:

The identifying information of any person or
entity who participates in or administers the
execution of a death sentence and the identifying
information of any person or entity that
manufactures, supplies, compounds, or prescribes
the drugs, medical supplies, or medical equipment

33a

The district court granted the GDOC's motion to
quash the subpoena. Id. at 8. While finding that this
single-drug protocol might be relevant to the Plaintiffs'
need to establish the existence of a feasible and
available alternative to Mississippi's three-drug
protocol, id. at 3, the district court observed that "the
Eleventh Circuit has uniformly given Georgia's Lethal
Injection Secrecy Act an expansive reading, essentially
viewing it as creating a total ban on the production of
information concerning Georgia's choices in connection
with its lethal injection protocol," id. at 6. The Court
then concluded, "where Georgia's own death row
prisoners have been flatly denied access to information
covered by Georgia's Lethal Injection Secrecy Act, it
similarly bars Jordan and Chase's efforts to secure the
same type of information via subpoena for use in their
Mississippi case." Id. at 7.
B.

Virginia
Provided Information
within a Week of Receiving
Plaintiffs' Subpoena, Despite the
Fact that Information about
Virginia's Three-Drug Protocol
Likely Lacks Relevance to Plaintiffs'
Attempt to Establish a Feasible and
Available Alternative to Mississippi's
Three-Drug Protocol

utilized in the execution of a death sentence shall
be confidential and shall not be subject to
disclosure under Article 4 of Chapter 18 of Title
50 or under judicial process. Such information
shall be classified as a confidential state secret.
O.C.G.A. § 42-5-36(d)(2).

34a

After seeking information from Missouri and
Georgia, Plaintiffs served the VDOC with a third-party
subpoena for documents and a deposition notice
seeking information regarding, inter alia, VDOC's
current lethal injection drug supplies, testing results,
and efforts to obtain lethal injection drugs. (ECF No.
2-2.) Virginia, like Mississippi, utilizes a three-drug
protocol beginning with midazolam. The VDOC quickly
and voluntarily supplied Plaintiffs with a host of
information responsive to the subpoena. (ECF No. 2-3.)
The VDOC, however, refused to supply Plaintiffs with,
inter alia, information that might lead to the
disclosure of the supplier of the chemicals the VDOC
utilizes in carrying out an execution or to the
disclosure of the identities of the members of the
VDOC execution team. VDOC argues that these
aspects of the subpoena should be quashed because
they require compliance
with discovery requests that are
overbroad, not narrowly tailored to the
subject of that dispute, require the
production of irrelevant information, and
would disclose identities that are
privileged as a matter of state and
federal constitutional law. Compliance
with the discovery requests would pose
an undue burden on VDOC, Virginia's
lethal injection drug suppliers, and
members of the execution team.
(Mem. Supp. Mot. Quash 18, ECF No. 2.)

35a

Plaintiffs assert that the VDOC's arguments
lack merit. Plaintiffs, however, fail to direct the Court
to any decision from any federal court of appeals8
where the court found that disclosure of the identities
of the execution team or the supplier of the lethal
injection materials pursuant to a discovery request to
be appropriate. Conversely, the circuit courts that
have addressed the issue have concluded that
disclosure of that information pursuant to a discovery
request would impose an undue burden upon a state
seeking to carry out lawfully imposed executions in the
future. See In re Ohio Execution Protocol Litig., 845
F.3d at 239 (citation omitted) ("[B]ut for the protective
order, Defendants will suffer an undue burden and
prejudice in effectuating Ohio's execution protocol and
practices."); In re Mo. Dep't of Corr., 839 F.3d at 736-

8

Plaintiffs assert that "[t]wo other district courts have
held that similar discovery requests were relevant to the
pleadings" in Plaintiffs' underlying case, and point to decisions in
the Western District of Missouri and the Northern District of
Georgia. (Resp. Opp'n Mot. Quash 13.) First, the findings of
relevance in those cases do not constitute even persuasive
authority here because they rest on the premise that the singledrug protocol in Missouri and Georgia would be relevant to
Plaintiffs establishing a readily, available feasible alternative to
Mississippi's current three-drug protocol. Virginia's three-drug
protocol does not hold the same relevance.
Perhaps more importantly, Plaintiffs point to these
decisions while acknowledging -- only by footnote -- that,
eventually, both subpoenas were quashed. As they must, Plaintiffs
admit that "[t]he Eighth Circuit reversed the [Missouri] district
court['s]" denial of the motion to quash, and the Northern District
of Georgia granted the motion to quash. (Id nn.24, 25.)

36a

38 (granting petition for rehearing, and granting
petition for writ of mandamus because disclosure of
the supplier's identity placed an undue burden on the
state by preventing it from acquiring the drug for
executions, and the inmates offered no assurances that
active investigation of the supplier would not lead to
further disclosure of identities); Jones v. Comm'r, Ga.
Dep't of Corr., 811 F.3d 1288, 1292-93 (11th Cir.)
(citation omitted) (internal quotation marks omitted)
(concluding death row inmate has no constitutional
right to "know where, how, and by whom lethal
injection drugs will be manufactured," and no "due
process right-of-access claim" to this information
exists), cert. denied, 136 S. Ct. 998 (2016).9 For the
reasons stated more fully below, the Court finds that
requiring the VDOC to file a further response to the
subpoena would pose an undue burden. Accordingly,
the Motion to Quash will be granted to the extent it
seeks information not already disclosed.10
II. Relevant Legal Principles Regarding
9

In the context of denying a stay of execution, a court in
this district recently rejected a Virginia inmate's assertion that he
had a "procedural due process right to discover information about
Virginia's lethal injection drugs." Gray v. McAuliffe, No.
3:16CV982-HEH, 2017 WL 102970, at *20 (E.D. Va. Jan. 10, 2017)
(citing Jones, 811 F.3d at 1292-93; Phillips v. De Wine, 841 F.3d
405,420 (6th Cir. 2016); Zink v. Lombardi, 783 F.3d 1089, 1109
(8th Cir.), cert. denied, 135 S. Ct. 2941 (2015); Trottie v.
Livingston, 766 F.3d 450,452 (5th Cir. 2014)).
10

Because the Court grants the Motion to Quash on the
grounds of undue burden, no need exists to address the VDOC's
other arguments for quashing the subpoena.

37a

the Motion to Quash
A.

Federal Rules of Civil Procedure 26
and 45

The Federal Rules of Civil Procedure govern the
scope of discovery. "Parties may obtain discovery
regarding any nonprivileged matter that is relevant to
any party's claim or defense and proportional to the
needs of the case .... " Fed. R. Civ. P. 26(b)(1).11
Pursuant to Federal Rule of Civil Procedure 45, parties
may use subpoenas to command parties or non-parties
to "produce designated documents, electronically
stored information, or tangible things in that person's
possession, custody, or control." Fed. R. Civ. P.
45(a)(1)(A)(iii).
Rule 45(d)(1) emphasizes that "[a] party or
attorney responsible for issuing ... a subpoena must
take reasonable steps to avoid imposing undue burden
or expense on a person subject to the subpoena." Fed.
R. Civ. P. 45(d)(1). A court "must quash or modify a

11

Federal Rule of Civil Procedure 26(c) provides, in
pertinent part:
A party or any person from whom discovery is
sought may move for a protective order in the
court where the action is pending . . . . The court
may, for good cause, issue an order to protect a
party or person from annoyance, embarrassment,
oppression, or undue burden or expense ....
Fed. R. Civ. P. 26(c)(1).

38a

subpoena that fails to allow a reasonable time to
comply; ... requires disclosure of privileged or other
protected matter, if no exception or waiver applies; or
subjects a person to undue burden." Fed. R. Civ. P.
45(d)(3)(A) (emphases added). "[T]he burden for
showing that a subpoena must be quashed under Rule
45([d])(3) is at all times on the movant." Ohio Valley
Envtl. Coal., Inc. v. U.S. Army Corps of Eng'rs, No. 1
:11MC35, 2012 WL 112325, at *2 (N.D.W. Va. Jan. 12,
2012); see Sheet Metal Workers Int'l Ass'n v. Sweeney,
29 F.3d 120, 125 (4th Cir. 1994).
"A party may seek to quash or modify a
subpoena on grounds of irrelevance or overbreadth,
even though irrelevance and overbreadth are not
explicitly listed as grounds to quash in Rule 26(c)(1) or
Rule 45([d])(1), because either irrelevance or
overbreadth necessarily establishes undue burden." In
re Subpoenas for Documents Issued to
ThompsonMcMullan, P.C., No. 3:16-MC-1, 2016 WL
1071016, at *5 (E.D. Va. 17, 2016). This principle flows
from the interaction of Rule 26(c)(1) and Rule 45(d)(1)
with Rule 26(b)(1). Id "[T]he scope of discovery allowed
under a subpoena is the same as the scope of discovery
allowed under Rule 26." Singletary v. Sterling, 289
F.R.D. 237, 240-41 (E.D. Va. 2012) (citing Cook v.
Howard, 484 F. App'x 805,812 (4th Cir. 2012);
Barrington v. Mortage IT, Inc., No. 07-61304-CIV 2007
WL 4370647, at *3 (S.D. Fla. Dec. 10, 2007)). "Despite
the additional proportionality consideration required
under the amendment to Rule 26, ... 'the [2015
amendment] does not place on the party seeking
discovery the burden of addressing all proportionality
39a

considerations."' Brown v. Mountainview Cutters, LLC,
No. 7:15cv204, 2016 WL 3045349, at *3 (W.D. Va. May
27, 2016) (alteration in original) (quoting Fed. R. Civ.
P. 26 advisory committee's note to 2015 amendment).
Rule 26(b) limits the scope of discovery to "any
nonprivileged matter that is relevant to any party's
claim or defense and proportional to the needs of the
case," Fed. R. Civ. P. 26(b)(1), and Rule 45(d)(1)
requires that a party seeking discovery through the
use of a subpoena "must take reasonable steps to avoid
imposing undue burden or expense on a person
subjected to the subpoena." Fed. R. Civ. P. 45(d)(1).
Thus,
any subpoena that seeks evidence that is
neither relevant ... or that is so overbroad
that compliance with its demands will
necessarily require production of
irrelevant evidence, seeks evidence
outside the scope of Rule 26(b)(1). Such a
subpoena creates an undue burden
because it necessarily imposes greater
hardship than is necessary to obtain
proper discovery.
In re Subpoenas for Documents Issued to
ThompsonMcMullan, P.C., 2016 WL 1071016, at *5. In
order to avoid imposing an undue burden, third-party
subpoenas, like the one before the Court, "must be
narrowly crafted to relevant subject matter in the
underlying litigation." Id. at *6 n.6 (citing Theofel v.
Farey-Jones, 359 F.3d 1066, 1071-72 (9th Cir. 2004); In
40a

re Subpoena Duces Teucm to AOL, LLC, 550 F. Supp.
2d 606, 612 (E.D. Va. 2008)).
Therefore, in assessing whether a subpoena
imposes an undue burden
[c]ourts should balance the need for
discovery against the burden imposed on
the person ordered to produce
documents. Non-party status is one of the
factors the court uses in weighing the
burden of imposing discovery. An undue
burden is identified by looking at factors
such as relevance, the need for the
documents, the breadth of the document
request, the time period covered by such
request, the particularity with which the
documents are described, and the burden
imposed.
Wyoming v. US. Dep't of Agric., 208 F.R.D. 449, 452-53
(D.D.C. 2002) (citations omitted).
Critically, as discussed more fully below,
disclosures pursuant to a subpoena that impede a
state's ability to carry out executions constitute an
undue burden. See Ohio Execution Protocol Litigation,
845 F.3d 231, 238-39 (6th Cir. 2016); In re Mo. Dep't
Corr., 839 F.3d 732, 737 (8th Cir. 2016).
B.

Eighth Amendment Principles in
Method of Execution Claims

41a

In the most recent method-of-execution
challenge the Supreme Court of the United States has
evaluated, a majority of the Court upheld the denial of
a preliminary injunction as to whether Oklahoma's
three-drug protocol using midazolam violated the
Eighth Amendment. Glossip v. Gross, 135 S. Ct. 2726,
2736-46 (2015). In Glossip, the Supreme Court
reiterated an earlier finding that "because it is settled
that capital punishment is constitutional, '[i]t
necessarily follows that there must be a
[constitutional] means of carrying it out."' Id at 273233 (quoting Baze v. Rees, 553 U.S. 35, 47 (2008)). While
the dissent in Glossip challenged this "flawed
syllogism,"12 id at 2795, the Court majority plainly

12

In Glossip, the dissent commented that, if only a
barbarous method of execution remained, it "would not become
less [barbarous] because it is the only method available to the
state." 135 S. Ct. 2726, 2795 (Sotomayor, J., dissenting). Thus, the
dissent suggests this syllogism could ring false if a state has
available only barbarous methods of execution. A majority of the
Supreme Court has been unwilling to adopt the dissent's
reasoning.
But the observation speaks to the sub rosa dispute
underlying many method-of-execution claims. Success in
identifying the source of lethal injection has, in addition to
allowing testing for unnecessary infliction of pain, resulted in
pressure on pharmacies or laboratories to cease supplying the
drug used in lethal injection. Glossip, 135 S. Ct. at 2733
(discussing sodium thiopental and pentobarbital); see Zink v.
Lombardi, 783 F.3d 1089, 1106 (8th Cir.) (citing allegation in
complaint saying that confidentiality improperly prevented
plaintiffs from "censuring or boycotting" suppliers of drugs or
their agents), cert denied, 135 S. Ct. 2941 (2015). When those
censuring efforts have succeeded, states have established a new

42a

confirmed its earlier observations in Baze that because
"[s]ome risk of pain is inherent in any method of
execution," the Eighth Amendment "does not require
the avoidance of all risk of pain" in carrying out
executions, Baze, 553 U.S. at 47. More specifically, the
Court in Baze defined the contours of the Eighth
Amendment by stating that "[s]imply because an
execution method may result in pain, either by
accident or as an inescapable consequence of death, [it]
does not establish the sort of 'objectively intolerable
risk of harm' that qualifies as cruel and unusual." Id.
at 50. "[P]risoners cannot successfully challenge a
method of execution unless they establish that the
method presents a risk that is 'sure or very likely to
cause serious illness and needless suffering, and give
rise to sufficiently imminent dangers."' Glossip, 135 S.
Ct. at 2737 (quoting Baze, 553 U.S. at 50). "[T]he
condemned prisoner [must] establish[] that the State's
lethal injection protocol creates a demonstrated risk of
severe pain." Id. (quoting Baze, 553 U.S. at 61).
Despite the Glossip dissent's contention that no
second requirement need be established, this Court
must apply what the majority in Glossip unmistakably
articulated as a second necessary showing an inmate
must make: the inmate must also show that "the risk
is substantial when compared to the known and
available alternatives." Id (quoting Baze, 553 U.S. at

drug protocol based on substituted, and still available, drugs. The
question then becomes whether the new drug or drug protocol
passes constitutional muster, and how deeply a challenge against
it may delve.

43a

61).13 This second prong requires the condemned
inmate to suggest an alternative method of execution
that is "known and available" as well as "feasible,
readily implemented, and in fact significantly [likely
to] reduce a substantial risk of severe pain." Id
(quoting Baze, 553 U.S. at 61, 52). The burden rests
with the plaintiff to "plead and prove" both prongs of
the test. Id. at 2739; see Brooks v. Warden, Comm'r
Ala. Dep't of Corr., 810 F.3d 812,819 (11th Cir. 2016)
(citation omitted), cert. denied, 136 S. Ct. 979 (2016).
To undertake a proper analysis under Glossip,
this Court must evaluate whether Plaintiffs, who
challenge Mississippi's three-drug protocol, are
entitled to discover information beyond that already
provided by the VDOC as to its own three-drug
protocol. In order to conclude that Plaintiffs should
receive further information, the Court must find that
any additional information would be relevant to the
Mississippi Amended Complaint, and that production
would not unduly burden the VDOC, a third-party
entity. Thus, the Court must provide some background
regarding the use of lethal injection in Virginia,
Plaintiffs' claims in Mississippi, and how the two
interrelate. Only with that backdrop can the Court
assess whether the motion to quash should be granted.

13

The dissent in Glossip argued, "[n]owhere did the
plurality [in Baze] suggest that all challenges to a State's method
of execution would require this sort of comparative-risk analysis."
135 S. Ct. at 2794. The dissent's attempt to constrain the finding
in Baze to its factual and legal posture did not prevail.

44a

III. Factual and Procedural Principles
Regarding the Motion to Quash
A.

Lethal Injection in Virginia

"As an alternative to execution by electric chair,
Virginia adopted lethal injection on January 1, 1995."
Gray v. McAuliffe, No. 3:16CV982-HEH, 2017 WL
102970, at *6 (E.D. Va. Jan. 10, 2017). Since then,
Virginia has efficaciously "executed [over] 80 inmates
by lethal injection." Id. Like Mississippi, "Virginia
employs a three-drug protocol to perform an execution
by lethal injection." Id. The first drug in Virginia's
protocol "renders the condemned inmate unconscious."
Id.
Earlier this year, Ricky Javon Gray challenged,
via preliminary injunction, the VDOC's proposal to
carry out his execution by the proposed use of
compounded midazolam to render him insensate. Id. at
*1. "Gray argue[d] that the VDOC' s planned use of
compounded drugs, including compounded midazolam,
carrie[d] a demonstrated risk of inflicting severe pain
upon him." Id. at *4 (citation omitted). The Gray Court
conducted an evidentiary hearing at which "A. David
Robinson, the Chief of Corrections Operations for the
VDOC, recounted the difficulty encountered by the
VDOC in acquiring lethal injection drugs. He also
explained the methodology the VDOC has employed
for monitoring and controlling the potency of the
compounded drugs at issue." Id. at *6 (citation

45a

omitted).14
Ultimately, the Gray Court concluded that Gray
"fail[ed] to make any showing, much less a clear
showing, that midazolam poses 'an objectively
intolerable risk of harm."' Id. at *12 (quoting Glossip,
135 S. Ct. at 2737). The Court further concluded that
the evidence "establishe[d] that the administration of
500 mg of midazolam can render a prisoner
unconscious and insensate to pain during the
remainder of the three-drug protocol. The evidence
[also] demonstrate[d] that even 500 mg of midazolam
used alone will result in a 'certainty of death.' (Prelim.
Inj. Hr'g Tr. 54.)" Id. at *13.
The Court further found that Gray had put forth
no persuasive "evidence that compounded drugs
subject [Gray] to 'a substantial risk of serious harm."'
Id. at *15 (quoting Glossip, 135 S. Ct. at 2737). In this
regard, the Court noted,
[T]he evidence before the Court reflects
that the VDOC selected a licensed
pharmacy and a licensed pharmacist to
make the compounded drugs. Moreover,
the compounded midazolam and
potassium chloride have been tested by [a
chemist at the Virginia Department of
Consolidated Laboratory Services,

14

This Court has reviewed the entirety of the transcript
of the evidentiary hearing, which the VDOC also has supplied to
Plaintiffs.

46a

General Services Division ("VDCL'')]. The
testing confirms that each bottle contains
the substance and concentration that
each label reflects and that the substance
meets the concentration level of
comparable manufactured drugs. The
presence of contaminants in the
compounded drugs would have been
revealed in the VDCL's test results.
Compounded drugs are utilized routinely,
even in clinical settings, and are just as
efficacious as their manufactured
counterparts. Gray fails to point to any
instance where a state has
unsuccessfully used compounded
midazolam or compounded potassium
chloride in the execution context.
Id. at *14. The Gray Court concluded that Gray fell
"far short of demonstrating entitlement to a
preliminary injunction," denied the motion for a
preliminary injunction, and allowed Gray's execution
to proceed. Id. at *5, *22.
In their Response in Opposition to the Motion to
Quash, Plaintiffs suggest that, in the end, Gray's
execution was not "without incident." (Resp. Opp'n 2,
ECF No. 12.) Plaintiffs quote a newspaper account of
Gray's execution that stated, in pertinent part:
[Gray] was placed on the gurney,
and a half-dozen members of the
execution team strapped down his limbs
47a

and torso. At 8:54, a curtain was drawn
blocking the view of the witnesses so IV
lines could be placed and other
procedures conducted.
By 9:14, the curtain was still
closed and the Virginia public safety
secretary, Brian J. Moran, apparently
prompted by questions from one of Gray's
lawyers, consulted with a corrections
official in the witness room. The curtain
was not opened again until 9:27. Gray's
lawyer, Elizabeth Peiffer, with the
Virginia Capital Representation
Resource Center, said following the
execution that "I do have great concern ...
it was a very unusual amount of time."
(Id.)15 However, this same newspaper report revealed
that, during the 33-minute interval between 8:54 and
9:27, no lethal injection drugs were administered. The
delay flowed from difficulty citing intravenous lines or
conducting other preliminary procedures, but the
remainder of the newspaper article, which Plaintiffs'
themselves cite, did not report any untoward
"incident" that occurred during the actual injection of
15

Plaintiffs' Response in Opposition to the Motion to
Quash cites F. Green and A. Rockett, Executed: Ricky Gray put to
death for murders of Harvey Girls, Richmond Times-Dispatch
(Jan. 18, 2017) http://www.richmond.com/news/local/crime/
executed-ricky-gray-put-to-death-for-murders-of-harvey/article
5deH312-1142-5cad-88a3-cdela0e068c7.html (last viewed July 8,
2017)).

48a

the lethal chemicals:16
When the curtain was reopened,
Gray declined to make a statement and
at 9:28, the first of the three chemicals
was introduced. Gray lifted his head up,
looked around, moved his toes and legs.
At 9:29, his eyes were closed. He
appeared to take a number of deep
breaths and he appeared to make snoring
or groaning sounds.[17]

16

F. Green and A. Rockett, Executed: Ricky Gray put to
death for murders of Harvey Girls, Richmond Times-Dispatch
(Jan. 18, 2017) http://www.richmond.com/news/local/crime/
executed-ricky-gray-put-to-death-for-murders-of-harvey/ article
5delf312-1142-5cad-88a3-cdela0e068c7.html (last viewed June 1,
2017)).
17

During the evidentiary hearing in Gray, Dr. Daniel E.
Buffington testified that in addition to rendering an individual
insensate, midazolam causes respiratory depression. Gray v.
McAuliffe, 3:16CV982-HEH, ECF No. 30 (E.D. Va. 2016) ("Gray
Transcript"), at 62-63. Gray's deep breaths appear to be consistent
with respiratory depression. Dr. Buffington testified:
[I]f you're going to say that [midazolam] is having
one effect, you would expect it to have all the
effects. So if you've got a serious profound
respiratory depression, you've also got serious
sedation and significant anesthetic effects all
simultaneous. So, I would not expect the
respiratory depression effect to be something the
person would be cognizant of.
Id at 63 (spelling corrected).

49a

At 9:32, an officer checked to make
sure Gray was unconscious. At 9:33, all
his body movements appeared to have
stopped. At 9:41, the physician came out
from behind the curtain and used a
stethoscope to listen to his chest. He was
pronounced dead at 9:42.
Plaintiffs' own source recounts that within five
minutes of injecting the first chemical, all of Gray's
bodily movements had stopped. And within fourteen
minutes Gray was pronounced dead. Plaintiffs fail to
plausibly suggest that Virginia's execution utilizing
midazolam as the first drug in a three-drug protocol
was fraught with the sort of problems admittedly
experienced by other states. Cf. The Estate of Lockett
by & through Lockett v. Fallin, 841 F.3d 1098, 1105-06
(10th Cir. 2016), cert. denied sub nom. Lockett v.
Fallin, 137 S. Ct. 2298 (2017) (citation omitted)
(describing an execution that lasted 43 minutes and
where the inmate said, "something's wrong," "buck[ed]
and writhe[d]," and "clench[ed] his teeth and
grimac[ed] in pain").
B.

Plaintiffs' Amended Complaint as It
Pertains to the VDOC
1.

Mississippi's Three-Drug
Protocol Is Similar to that
Used by Virginia

The Mississippi Department of Corrections
("Mississippi DOC") intends to execute Plaintiffs using
50a

a three-drug protocol similar to that which Virginia
employs. In their September 28, 2015 Amended
Complaint filed in the Southern District of Mississippi,
Plaintiffs contend that:
there is a substantial risk that the first
drug injected in a three-drug series will
not be administered correctly, will not be
sufficiently potent, pure, and rapid in
onset, and is not chemically capable of
rendering the prisoner unconscious and
insensate so he does not feel the painful
effects of the second and third drugs,
[therefore] the execution will cause
severe, torturous pain for the prisoner, in
violation of the Eighth and Fourteenth
Amendments.
(Am. Compl. ¶ 55, ECF 2-1.) Plaintiffs assert that no
need exists to use the second and third drugs and that
"[e]xecutions may be carried out through the use of a
single-drug anesthetic-only injection, a protocol now
used in most executions nationwide and which has
proven effective in executing over one hundred (100)
prisoners to date." (Id. ¶ 66.)
Plaintiffs do not challenge the "entirety of the
lethal injection protocol promulgated by [the
Mississippi DOC]." (Id. ¶ 6.) Instead, Plaintiffs insist
they challenge only:
the use of compounded drugs (including
but not limited to compounded
51a

pentobarbital) and midazolam in lethal
injection executions conducted by [the
Mississippi DOC]. Further this civil
action specifically challenges the use of a
three-drug lethal injection procedure.
Lastly, this civil action challenges [the
Mississippi DOC's] intent to have the
raw ingredients for pentobarbital
compounded into an injectable solution
on the grounds of the ... [p]enitentiary . .
. where there is no pharmacy suitable for
compounding sterile drugs.
(Id.) Plaintiffs contend:
there is a high risk that either: (a) the
Defendants intend to use a degraded
form of compounded pentobarbital for the
execution[s] of the Plaintiffs; (b) the
Defendants have obtained only the raw
ingredients for pentobarbital and intend
to compound the pentobarbital at the
Mississippi State Penitentiary [where no
licensed pharmacy exists]; or (c) the
Defendants have devised some other
unknown and heretofore untested
method of making pentobarbital.
(Id. ¶ 155.)
Furthermore, in July of 2015, the Mississippi
DOC's execution protocol changed to permit the "use of
midazolam in executions by [the Mississippi DOC]
52a

where a sufficient quantity of pentobarbital is
unavailable. Defendants have stated that [the
Mississippi DOC] is unable to obtain pentobarbital in
any form. However, other state departments of
corrections continue to obtain and utilize compounded
pentobarbital in lethal injection executions." (Id. ¶¶
185-87 (paragraph numbers omitted).) Unable to
obtain pentobarbital, the Mississippi DOC has
"purchased midazolam to be used as the first drug in
the three-drug series." (Id. ¶ 203.) Plaintiffs insist
midazolam "cannot be relied upon to render a person
anesthetized and insensate to pain." (Id. ¶ 201.)18
Plaintiffs also argue that the "Mississippi
protocol does not provide for any procedural
safeguards which have been added to the revised
lethal injection protocols of other jurisdictions in an
effort to reduce the ... harm that can result from
failures in the administration of lethal injection
drugs." (Id. ¶ 210.)
Plaintiffs contend there exists "a feasible

18

The Court notes that Torrey Twane McNabb, who was
"scheduled to be executed by the State of Alabama on October 19,
2017, by a three-drug lethal injection protocol, with midazolam as
the first drug administered," sought a stay challenging this
method of execution. Grayson v. Dunn, No. 2:12-CV-0316-WKW,
2017 WL 4638594, at *1 (M.D. Ala. Oct. 16, 2017), vacated sub
nom. Dunn v. McNabb, No. 17 A440, 2017 WL 4698311 (U.S. Oct.
19, 2017). On October 16, 2017, the United States District Court
for the Middle District of Alabama granted McNabb's motion to
stay his execution. Id. at *5. On October 19, 2017, the Supreme
Court vacated the stay. McNabb, 2017 WL 4698311, at*1.

53a

alternative which could substantially reduce the risk
of severe pain and serious harm presented by the
continuous intravenous administration of compounded
pentobarbital in combination with a chemical paralytic
agent and potassium chloride." (Id. ¶ 1223.) That
alternative requires "[t]he use of an FDA-approved,
ultra short-acting barbiturate in a single-drug protocol
.... " (Id. ¶ 1224.) Alternatively, if a noncompounded,
FDA approved barbiturate such as pentobarbital is
"not legally available, and only in that event," the use
of a compounded barbiturate "used in a single-drug
anesthetic-only protocol (without a paralytic agent or
potassium chloride), is a feasible and available
alternative which would significantly reduce the
substantial risk of severe pain presented by
Mississippi's current procedure." (Id. ¶ 226.)
2.

VDOC Properly Challenges Whether
the Subpoena Seeks Information
that Could Support or be Relevant to
any Claim About an Alternative
Method of Execution that Likely
Could Significantly Reduce a
Substantial Risk of Severe Pain

At base, much of the information Plaintiffs seek
from the VDOC appears to be irrelevant to the claims
they raise in Mississippi. Such a finding would render
any further production unduly burdensome. In re
Subpoenas for Documents Issued to
ThompsonMcMullan, P.C., No. 3:16--MC-1, 2016 WL
1071016, at *5 (E.D. Va. Mar. 17, 2016). First, because
Virginia's current lethal injection protocol is similar to
54a

Mississippi's contemplated protocol criticized by
Plaintiffs, it becomes hard to fathom how additional
information from the VDOC would support Plaintiffs'
claim that Mississippi is ignoring a "known and
available alternative[]" method of execution that is
"significantly [likely to] reduce a substantial risk of
severe pain," Glossip, 135 S. Ct. at 2737 (quoting Baze,
553 U.S. at 61),19 or how any additional response could
be "relevant to [that] claim," Fed. R. Civ. P. 26(b)(1).
Both states contemplate using midazolam as the first
drug.20 Indeed, the VDOCs production to date likely
includes much of the relevant responsive information
Plaintiffs are due under the rules.
Second, to the extent Plaintiffs seek information
about an alternative method, the VDOC readily
19

Plaintiffs contend that the "Mississippi protocol does
not provide for any procedural safeguards which have been added
to the revised lethal injection protocols of other jurisdictions in an
effort to reduce the ... harm that can result from failures in the
administration of lethal injection drugs." (Am. Compl. ¶ 210.) The
Court describes in detail, see infra Parts IV.A-IV.D, that the
VDOC already has provided Plaintiffs with a significant amount
of information relevant to this allegation, including the VDOC
Execution Manual and extensive testimony regarding how the
lethal injection drugs are stored and tested.
20

Plaintiffs' attempt to ascertain the GDOC's
pentobarbital supplier was relevant to Plaintiffs' claim that
pentobarbital is a better alternative than midazolam, and is
readily available to the Mississippi DOC for use in their
executions. Ga. Dep't Corr. v. Jordan, 1: 16-cv-02582- RWS-JCF,
at 3 (N.D. Ga. Oct. 20, 2016) (ECF No. 12-9). The same cannot be
said of Plaintiffs' attempt to ascertain the VDOC's midazolam
supplier for executions.

55a

provided Plaintiffs with transcripts from evidentiary
hearings in which Arnold David Robinson, the Chief of
Corrections Operations for the VDOC, testified that
the VDOC has been unable to obtain pentobarbital in
recent years. Prieto v. Clarke, 3:15CV587-HEH, ECF
No. 27 (E.D. Va. 2015) and Gray v. McAuliffe,
3:16CV982-HEH, ECF No. 30 (E.D. Va. 2016). Those
transcripts include extensive testimony from Robinson
regarding the VDOC's efforts to obtain pentobarbital,
midazolam and other lethal injection drugs. (Prieto Tr.
64-78; Gray Tr. 91-96, 98-99, 104-05.)
Third, because VDOC has efficaciously utilized
a three-drug protocol employing compounded
midazolam as the initial drug, the VDOC would not
appear to be a source of relevant information to
support Plaintiffs' claim that Mississippi's similar
proposed method of execution "presents a risk that is
sure or very likely to cause serious illness and needless
suffering, and give rise to sufficiently imminent
dangers." Glossip, 135 S. Ct. at 2737 (internal
quotation marks omitted) (quoting Baze, 553 U.S. at
50).
These three observations, the significant
information the VDOC already has provided to
Plaintiffs, and the Plaintiffs' own failure to reveal
what information they have obtained in discovery from
the Mississippi DOC in the underlying litigation, all
cut against Plaintiffs' need for the additional discovery
sought from the VDOC. See Wyoming v. U.S. Dep't of
Agric., 208 F.R.D. 449,452 (D.D.C. 2002) (citations
omitted) (explaining that in assessing undue burden,
56a

courts consider non-party status and "the need for
discovery against the burden imposed on the person
ordered to produce documents"). Plaintiffs have been
particularly opaque as to why the VDOC, a non-party
to the underlying action, is a better source of
information than the Mississippi DOC. These
circumstances taken together tend to undercut any
claim by Plaintiffs that they need the additional
discovery sought. Instead, the record indicates that
requiring the VDOC to provide additional material
would pose an undue burden. The Court will not draw
such a conclusion definitively, however, without
considering the subpoena and any response to it in
detail. That evaluation follows.
IV. Plaintiffs' Notice of Deposition, Subpoena
Duces Tecum, and the VDOC's Response
Plaintiffs' Notice of Deposition of a Nonparty
Organization (Notice Dep. 2-8, ECF 2-2) requires the
VDOC to designate one or more persons to testify as to
a variety of topics, the specifics of which are described
below. See infra Parts IV.A-IV.D. Plaintiffs also
request that the following documents, from 2010 to the
present,21 be produced:
21

For document requests 1-5, 6, and 8-13 and many of
their deposition topics, Plaintiffs demanded information dating
back to 2010. As explained below, the VDOC readily supplied
pertinent information when it was available and would not pose
an undue burden. See infra Parts IV.A-IV.B. However, as
explained more fully below, see infra Part IV.C, requiring the
VDOC to supply materials beyond the time period covered by the
current response would pose an undue burden.

57a

1) All documents related to attempts to secure
or purchase pentobarbital for use in executions in
Virginia;
2) All documents related to attempts of any kind
to secure or purchase midazolam for use in executions
in Virginia;
3) All drug labels and package inserts for any
drug purchased or obtained by the VDOC for use in
lethal injection executions;
4) The VDOC'S Lethal Injection Protocols and
Lethal Injection Procedures in force;
5) All documents related to the process by which
the VDOC decided to use a three-drug series including
the use of midazolam as the method of lethal injection
executions in Virginia;
6) All documents related to the VDOC's
potential use of any drug compounded from API for use
in lethal injection executions;
7) All documents related to the process by which
the VDOC determined that midazolam would be used
in lethal injection executions in Virginia;
8) All documents related to and/or evincing any
training attended by the VDOC' s officers, employees,
agents, or attorneys related to the conduct of
executions by lethal injection;

58a

9) All documents related to the supply or
inventory of drugs purchased, procured, held or stored,
by the VDOC for use in lethal injection executions,
including all logs or inventory lists maintained by the
VDOC with respect to such drugs;
10) All chronological logs or other documents
which disclose the timing of the administration of
lethal injection drugs in all executions in Virginia;
11) All documents which describe or evince the
actual process of each of the lethal injection executions
in Virginia;
12) All studies which constitute, describe or
evince any evaluations or other examinations into any
problems encountered in any lethal injection
executions in Virginia; and,
13) All communications between the VDOC or
any employee of, or attorney for, the VDOC, with any
employee of, or attorney for, the corrections
department or attorney general's office of any other
jurisdiction, including but not limited to Mississippi or
Texas, related to the selection, purchase, or exchange
of drugs for purposes of lethal injection executions.
(Id Ex. A, at 2-4.)
Within six days of being served with the
subpoena duces tecum, the VDOC sent thirteen
documents to Plaintiffs that were responsive to all but
two of Plaintiffs' thirteen document production topics,
59a

and all but seven of Plaintiffs' sixteen deposition notice
topics. As described in Parts IV.A through IV.D, the
VDOC provided information responsive to the
Plaintiffs' requests when doing so would not jeopardize
its ability to carry out executions.22 Nevertheless, the
majority of the topics for the deposition and the
documents requested by Plaintiffs seek information
that could reveal the supplier of Virginia's lethal
injection chemicals or the individuals involved in
carrying out Virginia's executions. (See, e.g., Notice of
Dep., Topics 1-8, 9(c), 12; Id. Ex. A, Documents to be
Produced 1-2, 5-8.) For the reasons articulated below,
the Court concludes that it would pose an undue
burden on the VDOC to provide these additional
materials.
A.

Materials Responsive to Notice of
Deposition Topics 1 through 5 and

22

Specifically, the VDOC provided Plaintiffs with: the
"Laboratory Report, Pentobarbital (Prieto v. Clarke, ECF No. 121)"; "Affidavit of D. Ricks (Arthur v. Dunn)"; roughly 300 pages of
testimony from the Prieto Transcript and the Gray Transcript;
"Certificate of Analysis, January 2017"; "Label, Potassium
Chloride (Gray v. McAuliffe, ECF 21-08)"; "Label, Midazolam
(Gray v. McAuliffe, ECF No. 21-07)"; "Certificate of Analysis,
items submitted December 2016 (Gray v. McAuliffe, ECF 21-06)";
"Certificate of Analysis, items submitted October 2016 (Gray v.
McAuliffe, ECF 21-05)"; "Label, Potassium Chloride (Gray v.
McAullife, ECF 21-04)"; "Label, Midazolam (Gray v. McAullife,
ECF 21-03)"; "Memorandum of Understanding with Compounding
Pharmacy (redacted) (Gray v. McAuliffe, ECF 21-02)"; and "VDOC
Operating Procedure 406, Execution Manual (redacted) Gray v.
McAuliffe, ECF 21- 01). " (Mem. Supp. Mot. Quash Ex. 3, at 2,
ECF No. 2-3.)

60a

Document Requests 1 through 2
In the first five topics in the Notice of Deposition
and the first two classes of documents requested to be
produced, Plaintiffs request information pertaining to
the VDOC's efforts to obtain lethal injection drugs,
including pentobarbital and midazolam from 2010
until the present. (Notice Dep. Topics 1-5.) In response,
the VDOC provided Plaintiffs with, inter alia, the
transcripts of the evidentiary hearings from Prieto v.
Clarke, 3:15CV587-HEH, ECF No. 27 (E.D. Va. 2015)
and Gray v. McAuliffe, 3:16CV982-HEH, ECF No. 30
(E.D. Va. 2016). In those transcripts, Arnold David
Robinson, the Chief of Corrections Operations for the
VDOC, provided extensive testimony regarding the
VDOC's efforts to obtain sodium thiopental,
pentobarbital, midazolam and other lethal injection
drugs. (Prieto Tr. 64-78; Gray Tr. 91-96, 98-99, 10405.) Robinson testified that the VDOC initially used
sodium thiopental and switched to pentobarbital when
it could no longer obtain sodium thiopental. (Gray Tr.
91.) The VDOC then switched to midazolam when it
could not obtain pentobarbital. (Gray Tr. 91).
Robinson's testimony covered the VDOC's efforts to
obtain lethal injection drugs from 2010 until the
present. (See Am. Compl. ¶ 278; Prieto Tr. 65.)
Furthermore, with respect to Plaintiffs' attempt to
gain information to support their assertion that the
Mississippi DOC should use pentobarbital in their
executions, the evidence reflects that the VDOC is not
a viable source for that information. Specifically the
VDOC has provided a transcript of sworn testimony
making plain that it "does not have pentobarbital,"
61a

and, as evidenced through the documents disclosed,
has not "for several years." (Reply 1; Prieto Tr. 64-78;
Gray Tr. 91-96.)
B.

Materials Responsive to Notice of
Deposition Topics 6 and 7

In Notice of Deposition Topics 6 and 7, Plaintiffs
seek, inter alia:
Topic No. 6: The process, if any, by
which sodium pentobarbital [Active
Pharmaceutical Ingredient ("API'')] has
been compounded into injectable
pentobarbital for use in lethal injection
executions by the Department between
2010 and the present. This topic includes,
but is not limited to:
(a) The individual, corporation, or
other entity with which the Department
is, or has in the past, compounded
sodium pentobarbital API into injectable
pentobarbital for use in lethal injection
executions.[23]
(b) Any contracts or other
agreements between the Department and
any officer, agent, employee or
representative of the compounding
23

This "individual, corporation or other entity" shall be
referred to below as "the compounding pharmacy."

62a

pharmacy.
...
Topic No. 7: The process, if any, by
which API has been compounded into any
drug other than pentobarbital (including,
but not limited to, midazolam) for use in
lethal injection executions by the
Department between 2010 and the
present. This topic includes, but is not
limited to:
(a) The individual, corporation, or
other entity with which the Department
is, or has in the past, compounded API
into any drug other than pentobarbital
(including, but not limited to, midazolam)
for use in lethal injection executions.[24l
(b) Any contracts or other
agreements between the Department and
any officer, agent, employee or
representative of the compounding
pharmacy.
(c) Any communications, whether
oral or written, whether on paper or
electronically or digitally transmitted,
between the Department and any officer,
agent, employee or representative of the
24

This "individual, corporation or other entity" shall be
referred to below as "the compounding pharmacy."

63a

compounding pharmacy.
(Notice Dep. 5, 6.) The VDOC declined to provide
Plaintiffs with information directly responsive to the
above requests because doing so could reveal the
identity of the pharmacy that was providing it with
lethal injection drugs. However, under each of these
topics, Plaintiffs also pursued information about
procedures for testing compounded pentobarbital or
compounded midazolam, (id. at 5-6, Topics 6(d), 7(d)).
The VDOC only used compounded midazolam in
Mr. Gray's execution in 2017. The VDOC only used
compounded pentobarbital, provided by Texas, in Mr.
Prieto's execution in 2015. Thus, no evidence about the
testing of compounded substances exists prior to 2015.
With respect to the compounded pentobarbital,
Robinson's testimony reflected that the VDOC did not
independently test the compounded pentobarbital, but
that Texas tested the drug and the VDOC obtained
from Texas "a certificate that verified the validity of
the drug." (Prieto Tr. 69, 73.)
With respect to the testing of compounded
midazolam, the VDOC provided the testimony of Dr.
Frank Fuller, III, the pharmacist for the VDOC, and
Shane Wyatt, the lead scientist for Virginia's Division
of Consolidated Laboratory Services. (Gray Tr. 129-47;
156-69.) Mr. Wyatt testified extensively about the
exacting testing performed on the drugs for the Gray
execution to assure their purity and potency. (Gray Tr.
159-69.) Dr. Fuller confirmed that the results of the
testing reflected that the concentrations of the drugs
64a

were "consistent with what you would see in their
commercially available counterparts." (Gray Tr. 136.)
C.

Materials Responsive to Notice of
Deposition Topics 8 thorough 10 and
Document Requests 3, 4, 5, 6, 7, 10
and 11

In Notice of Deposition Topics 8, 9, and 10,
Plaintiffs seek information about:
Topic No. 8: The storage of lethal
injection drugs by the Department from
2010 to the present. This includes, but is
not limited to:
(a) All policies, written procedures,
or other protocols governing the storage
of the drugs which are intended for use in
lethal injection executions.
(b) The actual practice of the
Department with respect to the storage
of the drugs which are intended by the
Department to be used in lethal injection
executions.
(c) The name, address, electronic
mail address, and business telephone
number of all persons, whether
individual or corporate or other entity,
responsible for the storage of the drugs
which are intended by the Department to
65a

be used in lethal injection executions.
Topic No. 9: The procedures used by the
Department from 2010 to the present to
execute a convicted offender by means of
lethal injection. This topic includes, but
is not limited to:
(a) The documents which set forth
the identity, dosage, and order of the
drugs used in the lethal injection
execution.
(b) The documents which set forth
the logistical steps taken by the
department and its officers, agents,
employees and/or attorneys in the days
leading up to an execution.
(c) The documents which record
the events during the process of a lethal
injection execution, including but not
limited to execution logs, autopsies, and
other materials.
(d) The actual practice of the
Department in the execution of convicted
offenders by means of lethal injection.
Topic No. 10: The process, if any, by
which the Department determined that
midazolam (either purchased in
injectable form or API purchased for
66a

compounding into injectable form) would
be used in lethal injection executions in
Virginia.
(Notice of Dep. 6-7.) The VDOC provided a significant
amount of information pertinent to the above topics. In
response to Topics 8(a) and 8(b), the VDOC provided
Plaintiffs with, inter alia, Robinson's testimony as to
how Virginia obtained and stored the drugs utilized in
Prieto' s execution. (Prieto Tr. 67-74.) Additionally, the
VDOC provided Dr. Fuller's extensive testimony
regarding how the VDOC stored the lethal injection
chemicals for Gray's execution. (Gray Tr. 129-43.) This
testimony covers the last two years and provides a
clear picture of the VDOC's current practices, but it
did not address the period between 2010 and 2014 as
identified in the deposition notice. Nevertheless, given
the amount of information produced and the VDOC's
third-party status, information for the 2010 to 2014
period appears irrelevant and unduly burdensome. See
In re Subpoenas for Documents Issued to
ThompsonMcMullan, P.C., No. 3:16-MC-1, 2016 WL
1071016, at *6 n.6 (E.D. Va. Mar. 17, 2016) (citations
omitted) (emphasizing that in order to avoid imposing
an undue burden, third-party subpoenas "must be
narrowly crafted to relevant subject matter in the
underlying litigation"). Moreover, Plaintiffs fail to
suggest how information about the VDOC's storage of
sodium thiopental and noncompounded pentobarbital
during the 2010 to 2014 period would advance their
claim.
In response to Topic 8(c), however, the VDOC
67a

did not identify the corporate entity or individual
responsible for storage of lethal injection drugs. As
discussed below, this Court finds that disclosure of this
information poses an undue burden. With respect to
Topic 9 and Document Requests 3, 4, 10, and 11, the
VDOC provided Plaintiffs with the VDOC Execution
Manual, the laboratory report for the pentobarbital
used in Prieto's execution, (ECF No. 2-3, at 2), the
labels of drugs and certificates of analysis of the drugs
utilized in the Gray execution (id.), and testimony
regarding the events that occur before and during an
execution. (Prieto Tr. 73-74; Gray Tr. 88-90.)25 The

25

Plaintiffs request "[a]ll drug labels and package inserts
for any drug purchased or obtained by the Department, from 2010
to the present, for use in lethal injection executions." (Notice of
Dep. Ex. A, at 15 (as paginated by CM/ECF).) The VDOC provided
labels of the drugs used in the most recent execution of Ricky
Gray, which involved compounded midazolam. Labels and inserts
for drugs the VDOC used before then, which by all accounts the
VDOC cannot obtain, see Gray, 2017 WL 102970, at *7, are not
relevant to Plaintiffs' claim. Plaintiffs' demand for such material
poses "an undue burden because it necessarily imposes greater
hardship than is necessary to obtain proper discovery." In re
Subpoenas for Documents Issued to ThompsonMcMullan, P.C.,
2016 WL 1071016, at *5.
The Court also notes that the VDOC did not list (see ECF
No. 2-3, at 2) any document responsive to Document Request 6:
"All documents related to the Department's potential use of any
drug (including, but not limited to, pentobarbital or midazolam)
compounded from API for use in lethal injection executions from
2010 to the present .... " (Notice Dep. Ex. A 2.) Although not
entirely clear, the record suggests that the lack of documents
flows from the fact that the VDOC has no documents responsive
to this request. Plaintiffs contend that the Mississippi DOC

68a

Execution Manual is eighteen (18) single-spaced pages
long and bears an effective date of June 30, 2016. (ECF
No. 21-1, at 1.) Attached to the Execution Manual are
an additional twenty-six (26) pages of forms and
checklists, with revision dates from October 1, 2010
(see Gray v. McAuliffe, 3:16cv982-HEH, ECF No. 21-1,
at 30) to February 14, 2014 (see ECF No. 19, at 1).
These documents provide further details regarding the
VDOC's execution procedures from 2010 until 2016.
Requiring the VDOC to provide additional information
about past procedures for executions would pose an
undue burden given the amount of information already
provided and the marginal possible relevance to
Plaintiffs' claims. This conclusion applies with equal
force to requiring the VDOC to respond further to
Notice of Deposition Topics 12 through 16 and
Document Requests 8 and 9 discussed below.
Additionally, in response to Document Requests
5 and 7 and Topic 10, the VDOC provided Plaintiffs
with Robinson's testimony recounting why the VDOC
incorporated midazolam into its lethal injection
protocol. (Gray Tr. 91-99, 104-05.)
D.

Notice of Deposition Topics 11
through 16 and Document Requests
8 and 9

intends "to have the raw ingredients [i.e., API] for pentobarbital
compounded into an injectable solution" on the prison grounds.
(Am. Compl. ¶ 6.) But the VDOC does not follow such a practice.
Rather, the record reflects that the lethal injection drugs are
delivered to the VDOC already compounded into an injectable
solution. (Gray Tr. 131-34.)

69a

In Notice of Deposition Topics 11 through 16,
Plaintiffs seek:
Topic No. 11: The process, if any, by
which the Department rejected the use of
a single-drug protocol for lethal injection
executions in Virginia.
Topic No. 12: The training mandated by
the Department from 2010 to the present
for officers, employees, agents or
attorneys with respect to the conduct of
executions by lethal injection. This topic
includes, but is not limited to:
(a) The professional and/or
educational certifications required for
employees within the Department to
participate in any specific role in lethal
injection executions.
(b) The documents provided to the
Department's officers, employees, agents
or attorneys during or as a result of any
such training.
(c)
The
syllabi,
training
description, or schedule of any such
training.
Topic No. 13: From 2010 to the present,
the supply or inventory of drugs
purchased, procured, held or stored, by
70a

the Department for use in lethal injection
executions, including the documents, logs
or inventory lists maintained by the
Department with respect to such drugs.
Topic No. 14: The actual process of
lethal injection executions in Virginia,
including the chronology of the
administration of lethal injection drugs
and the use of any method for monitoring
the consciousness of the condemned
prisoner, in all executions from January
1, 2010 to the present.
Topic No. 15: Any studies, evaluations
or other examinations into any problems
encountered in any lethal injection
executions in Virginia from January 1,
2010 to the present.
Topic No. 16: Any communication
between the Department and any officer,
agent, employee, or attorney: for the
Mississippi Department of Corrections or
the Mississippi Attorney General's Office
regarding lethal injection executions.
This topic includes, but is not limited to:
(a) The contents of any telephone
or in-person conversation between any
officer agent or employee of the
Department with any officer, agent or
attorney of or for the Mississippi
71a

Department of Corrections or the
Mississippi Attorney General's Office.
(b) The contents of any written
communication, whether invoice, letter,
electronic mail, text message or other
form of written communication between
any officer agent or employee of the
Department with any officer, agent or
attorney of or for the Mississippi
Department of Corrections or the
Mississippi Attorney General's Office.
(c) The current location of any
documents evincing any communication
between any officer agent or employee of
the Department with any officer, agent or
attorney of or for the Mississippi
Department of Corrections or the
Mississippi Attorney General's Office.
(Not. Deposition 7-8.)
Although the VDOC did not identify any
materials responsive to Topic 11, the record contains
nothing to suggest that the VDOC ever contemplated
utilizing a single-drug execution protocol.26 For more
than a decade Virginia has employed a three-drug
protocol in its executions. See Reid v. Johnson, 333 F.
Supp. 2d 543, 546-47 (E.D. Va. 2004). Moreover,
26

The VDOC did not indicate that it was withholding
documents pertinent to this request on grounds of privilege.

72a

according to Plaintiffs' Amended Complaint, the states
that currently employ a single-drug protocol utilize
pentobarbital. (Am. Compl. 1278.) But the VDOC has
not been able to obtain pentobarbital for roughly the
last two years.27 (Gray Tr. 91.)
Nevertheless, the VDOC turned over substantial
material relative to the remaining topics. With respect
to Topic 12 and Document Request 8, the VDOC
provided Plaintiffs with the description of training for
the execution team outlined in the VDOC Execution
Manual and Robinson's testimony describing the
execution team training. (Gray Tr. 88-90.) Many of the
materials previously described were responsive to
Topics 13 and 14 and Document Request 9, including
the labels for drugs utilized in recent executions and
the transcripts of the Gray and Prieto evidentiary
hearings. (ECF No. 2-3, at 2.)
The VDOC gave Plaintiffs information relevant
to Document Request 13, in which Plaintiffs sought all
documents pertaining to communications from the
VDOC to any employee of the corrections department
or attorney general's office of any other jurisdiction
related to the selection, purchase, or exchange of drugs
for lethal injection executions. Specifically, the VDOC
supplied Plaintiffs with Robinson's testimony
27

Robinson testified that the VDOC authorized the use of
midazolam in 2014 because it could not locate a commercial
supplier of pentobarbital. (Gray Tr. 91-92.) The VDOC was able to
obtain pentobarbital for Mr. Prieto's 2015 execution only because
Texas agreed to provide the VDOC with compounded
pentobarbital. (Gray Tr. 92.)

73a

regarding his communications with Texas, Florida,
and Alabama officials about lethal injection drugs.
(Prieto Tr. 66-73, 75-78; Gray Tr. 92, 98, 104-05.)
Finally, with respect to Topic 15 and Document
Request 12, requesting any studies related to any
problems encountered in lethal injection executions in
Virginia from 2010 to the present, the VDOC offered
Plaintiffs Robinson's testimony stating that he had
witnessed thirteen executions, (Gray Tr. 88), that the
VDOC had not "ever had an issue with IV line
placement in our executions by lethal injections,"28
(Gray Tr. 90), and that there were no problems in
executing Prieto with compounded pentobarbital,
(Gray Tr. 93).
The VDOC did not provide any materials
responsive to Topic 16 regarding communications
between VDOC officials and officials with the
Mississippi DOC. The record does not establish
whether that omission is attributable to the fact that
no relevant communications exist, to the probability
that such communications may unveil the VDOC's
supplier of the lethal injections chemicals, or to
something else. Under any scenario, however, the
Mississippi DOC remains a party to underlying
litigation, meaning that Plaintiffs should obtain such
information, if discoverable, directly from the

28

As discussed above, Mr. Gray's execution was slightly
delayed while VDOC cited the IV lines. Ultimately, however,
before the administration of the lethal chemical, the VDOC
officials were able to place the lines so that the execution went
forward without incident.

74a

Mississippi DOC rather than VDOC in its third-party
status.
V. Analysis
Federal Rule of Civil Procedure 45(d)(3)(A)(iv)
"prohibits the discovery of information 'where no need
is shown, or compliance would be unduly burdensome,
or where harm to the person from whom discovery is
sought outweighs the need of the person seeking
discovery of the information."' In re Mo. Dep't of Corr.,
839 F.3d 732, 736 (8th Cir. 2016) (quoting
Miscellaneous Docket Matter No. 1 v. Miscellaneous
Docket Matter No. 2, 197 F.3d 922,925 (8th Cir. 1999)),
cert. denied sub nom. Jordan v. Mo. Dep't of Corr., 137
S. Ct. 2180 (2017). The majority of the unanswered
Topics for Deposition and the undisclosed documents
requested by Plaintiffs seek information that would
reveal the supplier of Virginia's lethal injection
chemicals or the individuals involved in carrying out
Virginia's executions. (See, e.g., Notice of Dep., Topics
1-8, 9(c), 12; Id. Ex. A, Documents to be Produced 1-2,
5-8.) In those instances where it would not jeopardize
its ability to carry out executions, the VDOC generally
provided information responsive to the Plaintiffs'
requests. Clearly, complying with the remaining
aspects of the subpoena would pose an undue burden
on the VDOC.
The Eighth Circuit made that exact finding as
to these Plaintiffs when they served upon the MDOC
a third-party subpoena similar to that served on the
VDOC. There, Plaintiffs served "a third-party
75a

subpoena for documents and a Federal Rule of Civil
Procedure .... 30(b)(6) deposition notice seeking
information regarding MDOC's use of pentobarbital in
lethal injections, including the identity of MDOC's
supplier of pentobarbital." In re Mo. Dep't of Corr., 839
F.3d at 734. MDOC filed a motion to quash and argued
that Plaintiffs' subpoena presented an undue burden
under Rule 45(d)(3)(A)(iv). Id. MDOC relied upon the
affidavit of MDOC Director George Lombardi, who
asserted that "MDOC's pentobarbital suppliers
'require the assurance of confidentiality,' [and]
producing the information sought by the inmates
would result in the state no longer being able to obtain
the drug for use in executions." Id. The district court
concluded that Lombardi's affidavit was "'insufficient
to establish that Missouri's supplier will no longer
supply pentobarbital to Missouri if identified to
Respondents' because Lombardi's statement was 'a
bare, hearsay assertion unsupported by record
evidence."' Id.
Ultimately, the United States Court of Appeals
for the Eighth Circuit granted a writ of mandamus and
prohibited the discovery when the MDOC's anonymous
pentobarbital supplier, designated as "M7," submitted
a declaration wherein it stated that if its identity is
disclosed, it will not supply lethal chemicals to
anyone.29 Id. at 735. The Eighth Circuit concluded:

29

This reasoning echoes that of Glossip: in the absence of
confidentiality, anti-death penalty activists target labs or
suppliers to cease the distribution of legal drugs for a
controversial, but still legal, use. The resulting scarcity of drugs

76a

A state has an interest in "exercising its
sovereign power to enforce the criminal
law." In re Blodgett, 502 U.S. 236, 239,
112 S. Ct. 674, 116 L.Ed.2d 669 (1992).
As M7's declaration demonstrates,
disclosure of M7' s identity will certainly
harm this interest by preventing MDOC
from acquiring pentobarbital for
executions from M7. Without M7,
Lombardi states that MDOC "would not
be able to obtain the lethal chemicals
necessary to carry out its lawful
executions."
Id. at 736.
More recently, relying on Ohio's secrecy statute,
the United States Court of Appeals for the Sixth
Circuit upheld a protective order that prevented
inmate plaintiffs from obtaining the identity of the
supplier of the drugs to be used in their executions. In
re Ohio Execution Protocol Litig., 845 F.3d 231, 233
(6th Cir. 2016), cert denied, sub nom. Fears v. Kasich,
No. 17-5010, 2017 WL 2854622 (U.S. Oct. 2, 2017).
"After hearing testimony and admitting evidence, the
district court found that the disclosures would cause
an undue burden on and prejudice Defendants by

could impinge on what the Supreme Court has identified as a
state's "legitimate interest in carrying out a sentence of death in
a timely manner." Baze v. Rees, 553 U.S. 35, 61 (2001) (citations
omitted); see also Nelson v. Campbell, 541 U.S. 63 7, 644 (2004)
(calling it a "significant interest").

77a

subjecting them to the risk of harm, violence, and
harassment and by making it difficult for them to
obtain lethal-injection drugs." Id at 237. The district
court observed that, given the legality of execution by
lethal injection,
[a] court should then regard discovery
that overly burdens or outright prevents
a state from obtaining the drugs,
materials, or assistance needed to
execute by lethal injection as suspect and
consequently drill down into the parties'
arguments on each side of the issues. The
specific, albeit limited, evidence before
this Court and Ohio's secrecy statute
together present good cause for issuance
of the requested protective order.
In re: Ohio Execution Protocol Litig., No. 2:11-CV-1016,
2015 WL 6446093, at *9 (S.D. Ohio Oct. 26, 2015),
ajf'd sub nom. In re Ohio Execution Protocol Litig., 845
F.3d 231 (6th Cir. 2016). Both these cases provide
persuasive authority for this Court's decision to quash
the remainder of Plaintiffs subpoena to the VDOC. The
Court's rationale follows.
A.

Disclosure of Information Pertaining
to the VDOC's Supplier of Lethal
Injection Drugs and the Members of
the Execution Team Poses an Undue
Burden

The Circuit Courts concur that requiring
78a

disclosure of suppliers of lethal injection chemicals and
team members imposes an undue burden on states. In
re Mo. Dep't of Corr., 839 F.3d at 736; In re Ohio
Execution Protocol Litig., 845 F.3d at 239-40; see Jones
v. Comm'r, Ga. Dep't of Corr., 811 F.3d 1288, 1292-93
(11th Cir.), cert. denied, 136 S. Ct. 998 (2016). Upon
review of the record, and considering Virginia's thirdparty status in receiving these discovery requests, this
Court agrees that disclosure of additional information
regarding suppliers or execution team members would
be unduly burdensome. Wyoming v. US. Dep't of
Agric., 208 F.R.D. 449, 452-53 (D.D.C. 2002) (citations
omitted).
The issues heard during the Gray motion for
preliminary injunction overlap substantially with
those raised, on a third-party basis, by Plaintiffs here.
Within a week of receiving their discovery requests,
the VDOC provided Plaintiffs with a copy of the Gray
Transcript and other evidence from the Gray and
Prieto evidentiary hearings.30 The historical record and
Robinson's testimony from the Gray hearing provide
strong evidence that the VDOC's duty to implement
the sentences of Virginia's condemned inmates would
be frustrated if the identity of the supplier of Virginia's
lethal injection drugs is revealed.
Robinson testified that prior to Prieto's
execution, the VDOC was experiencing difficulties
obtaining lethal injection drugs. (Gray Tr. 92.)
Robinson indicated that commercial suppliers of lethal
30

See supra n.22.

79a

injection drugs were unwilling to provide the drugs to
the VDOC. (Gray Tr. 91-92.) Robinson testified that if
Texas had not supplied the VDOC with the necessary
drugs, the VDOC would not have had drugs to use in
Prieto's execution. (Gray Tr. 92.)
After Prieto's execution, the VDOC again
attempted to purchase lethal injections drugs, but was
unsuccessful. (Gray Tr. 92.) In the wake of these
unsuccessful efforts, Virginia passed a new secrecy

80a

statute31 to complement its other secrecy statute.32
31

The pertinent portions of the new statute provide:

The identities of any pharmacy or outsourcing
facility that enters into a contract with the
Department for the compounding of drugs
necessary to carry out an execution by lethal
injection, any officer or employee of such
pharmacy or outsourcing facility, and any person
or entity used by such pharmacy or outsourcing
facility to obtain equipment or substances to
facilitate the compounding of such drugs and any
information reasonably calculated to lead to the
identities of such persons or entities, including
their names, residential and office addresses,
residential and office telephone numbers, social
security numbers, and tax identification numbers,
shall be confidential, shall be exempt from the
Freedom of Information Act (§ 2.2-3700 et seq.),
and shall not be subject to discovery or
introduction as evidence in any civil proceeding
unless good cause is shown.
Va. Code Ann.§ 53.1-234 (West 2017) (Effective July 1, 2016).
32

Effective July 1, 2007, Virginia's other secrecy statute
provides in pertinent part:
The identities of persons designated by the
Director to conduct an execution, and any
information reasonably calculated to lead to the
identities of such persons, including, but not
limited to, their names, residential or office
addresses, residential or office telephone
numbers, and social security numbers, shall be
confidential, shall be exempt from the Freedom of
Information Act (§ 2.2-3700 et seq.), and shall not
be subject to discovery or introduction as evidence

81a

Robinson explained that, "[a]fter the enactment of law,
we went out and talked with numerous pharmacies
throughout the Commonwealth of Virginia.
Somewhere in the neighborhood of 20 to 25." (Gray Tr.
93.) Eventually, the VDOC found a compounding
pharmacy willing to provide the drugs. (Gray Tr. 93.)
"The VDOC was required to enter into a Memorandum
of Understanding with a compounding pharmacy
before the pharmacy agreed to provide the VDOC with
the necessary drugs. (ECF No. 21-2.) Total
confidentiality about the pharmacy's identity was an
essential term of that agreement. (Prelim. Inj. Hr'g Tr.
95.)" Gray v. McAuliffe, No. 3:16CV982-HEH, 2017 WL
102970, at *7 (E.D. Va. Jan. 10, 2017).33 Robinson
explained that his "[e]xperience has shown that if the
pharmacy or pharmacist was to be revealed, ... they
in any civil proceeding unless good cause is
shown.
Va. Code Ann.§ 53.1-233 (West 2017) (Effective July 1, 2007).
33

The Gray Court also noted:

In light of the pressure waged by death penalty
opponents, it has become increasingly difficult to
obtain the drugs Virginia traditionally used to
render a prisoner unconscious during the initial
stage of the execution process .... Because death
penalty opponents have made it difficult to obtain
FDA-approved drugs customarily used in
executions, Virginia has recently resorted to
obtaining drugs from compounding pharmacies
instead of traditional suppliers.
Gray, 2017 WL 102970, at *7.

82a

would not provide the drugs that were necessary just
because of potential outside pressure to that
organization." (Gray Tr. 95.)
Robinson's testimony confirms that Virginia's
ability to secure the drugs necessary to carry out lethal
injections would be jeopardized, if not totally
frustrated, should the supplier of those drugs be
disclosed. Thus, the VDOC contends here that
"Virginia's ability to obtain lethal injection drugs and
conduct executions would be greatly damaged, if not
completely eliminated," if the identities of its supplier
of lethal injection drugs and the members of the
execution team were revealed. (VDOC's Reply 6, ECF
No. 13.) This contention is borne out by the historical
record and the experience of other states currently
attempting to obtain lethal injection drugs. Glossip v.
Gross, 135 S. Ct. 2726, 2733 (2015) (detailing how antideath penalty advocates pressured pharmaceutical
companies to stop supplying sodium thiopental and
pentobarbital for use in executions).
Virginia, like Ohio, passed a statute to keep
secret the identity of the pharmacy that supplies the
drugs to be utilized in the lethal injection process. Va.
Code § 53.1-234; see In re Ohio Execution Protocol
Litig., 845 F.3d at 237 (observing that the Ohio secrecy
statute was enacted out of concern for "the burden on
and prejudice to the state that disclosure presents"
(quoting In re: Ohio Execution Protocol Litig., 2015 WL
6446093, at *7)). This Court, like the Sixth Circuit,
views the statute as an evidentiary "add-on" to the
reasons counseling against disclosure: "the same
83a

concerns that apparently led to the creation of the
statute [exist]: the burden on and prejudice to the
state that disclosure presents." In re Ohio Execution
Protocol Litig., 845 F.3d at 237 (internal quotation
marks omitted) (citation omitted). Thus, without
deciding whether the state statute creates any
privilege in federal court, and even in the absence of a
specific threat against an Ohio-connected pharmacy,
the district court recognized that disclosure would pose
"a tangible burden on Defendants and would be unduly
prejudicial." In re: Ohio Execution Protocol Litig., 2015
WL 6446093, at *2.
In addition to noting the statute's existence, the
VDOC, like the Ohio Defendants, try to demonstrate
danger posed by disclosure of the pharmacy by citing
a threatening email sent to an apothecary that
supplied execution drugs to the state of Missouri,
which states in pertinent part:
Still, were I you I'd at least want to beef
up my security now that you've been put
in the spotlight as a likely supplier and
failed to issue a flat denial. As the folks
at the federal building can tell you, it
only takes one fanatic with a truckload of
fertilizer to make a real dent in business
as usual.
(Mem. Supp. Mot. Quash Ex. 5, at 14.) The Ohio
district court opined that, "[i]f the question is whether
a reasonable pharmacy owner or compounder would
feel burdened by receiving such an email, the answer
84a

is likely if not certainly yes. And by burdened this
Court means likely scared to the point of electing not
to help Ohio" in assisting in executions. In re: Ohio
Execution Protocol Litig., 2015 WL 6446093, at *3.
When assessing whether a subpoena imposes an
undue burden courts balance ''the need for discovery
against the burden imposed on the person ordered to
produce documents." Wyoming, 208 F.R.D. at 452
(citation omitted). The remaining outstanding
discovery largely deals with information that would
disclose the identity of the VDOC's execution team and
the supplier of its lethal injection drugs. On this
record, the Court must find that disclosure of the team
and suppliers would be unduly burdensome because it
would impede the VDOC's significant interest in
carrying out lawfully imposed sentences. Similar to the
MDOC in the Eighth Circuit, the VDOC has produced
evidence that total confidentiality is essential to
maintain the supply of lethal injection drugs. As in the
Sixth Circuit, the Court evaluates a request from a
state whose legislature has enacted a statute to protect
such information from disclosure. Unlike either circuit,
the Court faces a record in which the VDOC has
disclosed considerable information while, largely,
excepting out only information about team members
and suppliers. In light of the foregoing, the Court finds
that requiring the VDOC to further respond to the
Notice of Deposition and Subpoena Duces Tecum
imposes an undue burden upon the VDOC. Disclosure
of this information would place a real and significant
burden on the VDOC. Conversely, Plaintiffs have
shown little, if any, need for the information.
85a

B.

Disclosure of Additional Information
Would Be Unduly Burdensome for
Other Reasons

Other factors this Court should assess when
evaluating the burden on VDOC also weigh in favor of
quashing additional disclosure. See Wyoming, 208
F.R.D. at 452-53 (citation omitted). First, the VDOC's
non-party status is one of the factors the Court
considers in assessing the burden of imposing further
discovery from the VDOC. Id. at 452 (citation omitted).
VDOC has provided documents beyond that required
of Missouri or Georgia, and nothing on this record
clearly establishes the current state of what
Mississippi has or has not provided. The law does not
require further disclosure from the VDOC as a thirdparty respondent.
Second, it does not appear that Plaintiffs seek
relevant information beyond that provided already by
Virginia. A requirement to provide additional,
irrelevant information would be unduly burdensome.
In re Subpoenas for Documents Issued to
ThompsonMcMullan, P. C., 2016 WL 1071016, at *5;
see also Wyoming, 208 F.R.D. at 453. Unlike the
suppliers of pentobarbital to Georgia and Mississippi,
which Plaintiffs tout as a superior drug for lethal
injection purposes, the VDOC's anonymous
compounding pharmacy supplies the VDOC with
midazolam, which according to Plaintiffs, is an inferior
drug for use in lethal injections. Thus, disclosure of
this information would not be relevant to
demonstrating an alternative method of execution that
86a

is "known and available" as well as "feasible, readily
implemented, and in fact significantly [likely to]
reduce a substantial risk of severe pain." Glossip, 135
S. Ct. at 2737 (quoting Baze v. Rees, 553 U.S. 35, 52
(2008)). To the extent that pentobarbital and
compounding issues are relevant to Plaintiffs' claim,
they deserve nothing more than the significant
information that already has been supplied. That
information reflects, among other things: that the
VDOC switched to compounded midazolam because it
could not obtain pentobarbital; how the VDOC tests
and stores its compounded midazolam; and, the
detailed procedures the VDOC employs for ensuring
that an execution by lethal injection goes smoothly.
Third, Plaintiffs' requests for additional
materials are overbroad and unduly burdensome to the
extent that they seek information dating back to
2010.34 Wyoming, 208 F.R.D. at 453 (citation omitted).

34

Plaintiffs were obliged to "narrowly craft[]" the
subpoena "to relevant subject matter in the underlying litigation"
in order to avoid imposing an undue burden on a third-party like
the VDOC. In re Subpoenas for Documents Issued to
ThompsonMcMullan, P.C., No. 3: 16-MC-1, 2016 WL 1071016, at
*6 n.6 (E.D. Va. 17, 2016) (citing Theofel v. Farey-Jones, 359 F.3d
1066, 1071-72 (9th Cir. 2004); In re Subpoena Duces Teucm to
AOL, LLC, 550 F. Supp. 2d 606, 612 (E.D. Va. 2008)).
Nevertheless, Plaintiffs disregarded this obligation and demanded
that the VDOC produce all documents dating back to 2010. This
hardly constitutes an effort to narrowly craft the subpoena and,
in this respect, makes the subpoena overly broad and unduly
burdensome. U.S. Dep't of Agric., 208 F.R.D. at 453 (citation
omitted) (observing that courts consider the time period covered
by the document request in assessing undue burden).

87a

The VDOC has supplied Plaintiffs with almost all the
information it supplied to Prieto and Gray, the two
most recent challengers to the Virginia lethal injection
procedures.35 This material provides a full picture of
how the VDOC currently carries out an execution.
Plaintiffs fail to suggest how material related to the
VDOC's storage of pentobarbital or labels from
pentobarbital and other drugs the VDOC can no longer
obtain would advance their underlying Eighth
Amendment claim. The time frame and the
overbreadth of any additional information requested
by Plaintiffs demonstrate that any further production
by VDOC would be unduly burdensome. Id (citation
omitted).

35

It may be that Plaintiffs' attempt to ascertain the
VDOC's supplier of lethal injection drugs is a roundabout effort to
discover the supplier of the lethal injection drugs for the
Mississippi DOC. Such information is marginally relevant to their
claim. Nevertheless, when Ricky Gray, a Virginia inmate, in a
direct challenge to his imminent execution sought to obtain the
identity of the pharmacy supplying lethal injection drugs to the
VDOC, the Gray Court concluded Mr. Gray had no right to such
information. Gray v. McAuliffe, No. 3:16CV982-HEH, 2017 WL
102970, at *20 (E.D. Va. Jan. 10, 2017) (citing Jones, 811 F.3d at
1292-93; Phillips v. De Wine, 841 F.3d 405,420 (6th Cir. 2016);
Zink v. Lombardi, 783 F.3d 1089, 1109 (8th Cir.), cert. denied, 135
S. Ct. 2941 (2015); Trottie v. Livingston, 766 F.3d 450,452 (5th Cir.
2014)). Plaintiffs certainly have less need for the identity of the
VDOC's supplier of lethal injection drugs than did Mr. Gray. If
Plaintiffs wish to discover the Mississippi DOC's supplier of lethal
injection drugs, they should do so through the normal discovery
procedures in the underlying litigation. For all the reasons
previously stated, requiring the VDOC to disclose the supplier of
its lethal injection drugs is unduly burdensome and far outweighs
Plaintiffs need for that information.

88a

C.

Quashing the Subpoena
Appropriate Remedy

Is the

Plaintiffs suggest that the Court need not quash
the subpoena, but could enter
a protective order [that] would allow
Jordan and Chase access to the
documents and testimony requested, but
would require them to file any privileged
information under seal in the underlying
case. Similarly, no party to the
underlying case in Mississippi would
have a right of access to the privileged
materials without being willing to be
bound by the terms of the protective
order.
(Resp. 20.) In nearly identical contexts, other courts
have observed that such protective orders are not
adequate to protect a state's interest in shielding the
identities of individuals and entities that assist the
state in carrying out executions. See In re Ohio
Execution Protocol Litig., 845 F.3d at 238-39
(observing that "the district court did not err in
rejecting Plaintiffs' request to designate certain
information subject to the protective order as
'attorney's eyes only"'); In re Mo. Dep't of Corr., 839
F.3d at 737. Indeed, just as they do here, these same
Plaintiffs argued that Missouri's interest in limiting
the disclosure of its supplier of lethal injection drugs
could be adequately accommodated by including "a
provision requiring third parties to agree to be bound
89a

by the terms of a protective order as a condition
precedent to receiving documents produced under such
an order." In re Mo. Dep't of Corr., 839 F.3d at 737.
The Eighth Circuit flatly rejected that argument: Id.
[I]n In re Lombardi, [741 F.3d 888 (8th
Cir. 2014)], we granted a writ [of
mandamus] to prevent disclosure of the
lethal chemical supplier's identity
instead of requiring a protective order.
741 F.3d at 897 ....
...[E]ven assuming that the district
court can issue such an order directed at
[third parties], the inmates fail to
distinguish this case from In re
Lombardi. There, we granted a writ
based on Lombardi's assertion that "it is
likely that active investigation of the
physician, pharmacy, and laboratory will
lead to further disclosure of the
identities." 741 F.3d at 894. The inmates
do not offer any assurances that they will
be able to investigate the supplier any
more subtly than the inmates in In re
Lombardi.
Id.
In Virginia, after much effort, the VDOC located
a pharmacy that agreed to provide the chemicals
necessary to carry out its executions. Gray, 2017 WL
102970, at *7. "Total confidentiality about the
90a

pharmacy's identity was an essential term of that
agreement." Id. Revelation of the pharmacy's identity
to Plaintiffs, even if Plaintiffs revealed the pharmacy's
identity to no one else, would jeopardize that
agreement and frustrate the VDOC's lawful duty to
carry out the sentences of execution imposed by the
Virginia courts.
VI. The VDOC's Invocation of Privilege
The VDOC also filed a privilege log with respect
to 12 categories of documents that it asserted were
protected by, inter alia, Virginia Code §§ 53.1-233 and
53.1-234 ("the Virginia Secrecy Statutes"), executive
privilege, attorney-client communication, and an
individual's right to privacy in their health care
records. (Reply Ex. 10, ECF No. 12-10.) Plaintiffs
contest the VDOC's assertion of privilege under the
Virginia Secrecy Statutes. (Reply 15-19.) The VDOC
invoked the Secrecy Statute as a privilege with respect
to documents that revealed the identities of the
execution team or the lethal drug supplier. (Reply Ex.
10, at 2-4.) This Court, like the Sixth Circuit, need not
address that issue. Disclosure of these documents
would pose an undue burden on the VDOC, and the
need behind Virginia's secrecy statute merely serves as
additional evidence that a concern of harm exists. The
Court does not rest its undue burden finding on
privilege.
Plaintiffs note that the privilege log "raises
claims of privilege based on other state statutory
sources." (Reply 13 n.26.) Plaintiffs assert that
91a

"[b]ecause VDOC did not brief the applicability of
these other claims of privilege, they are waived in
connections with the VDOC's Motion to Quash." (Id.)
Plaintiffs, however, fail to provide any legal authority
for this proposition or otherwise contest the VDOC's
invocation of privilege. Moreover, review of the
privilege log indicates that the VDOC identified
privileged documents with sufficient particularity to
allow Plaintiffs to launch an individualized, rather
than this sweeping, challenge to the information
withheld.36 Because the Court does not rely on
privilege in quashing the subpoena, and because
Plaintiffs do not challenge the VDOC's detailed and
substantive description of which documents are subject
to privilege, the Court need not and will not consider
the issue of privilege further.
VII. Conclusion
After receiving Plaintiffs' subpoena, the VDOC
promptly provided Plaintiffs with a plethora of
information responsive to Plaintiffs' requests.
Although Plaintiffs contend their need for additional
information is substantial, they fail to reveal what
information they have received during discovery from
the defendants in the underlying civil rights litigation
36

For example, in one entry in the Privilege Log, the
VDOC invoked "Attorney-client communication" with respect to
an "August 2013 letter authored by the Director of the Virginia
Department of Corrections, directed to an attorney at the Office
of Attorney General, discussing previously-provided legal advice
on executions by lethal injection. Marked as confidential
communication. 2 pages." (Reply Ex. 10, at 2.)

92a

to provide context for this contention. In contrast, it is
plain that ordering the VDOC, a non-party to
underlying litigation, to provide the additional
documents sought would pose a substantial and undue
burden. See Ohio Execution Protocol Litigation, 845
F.3d 231, 238-39 (6th Cir. 2016); In re Mo. Dep't Corr.,
839 F.3d 732, 737 (8th Cir. 2016).
Federal Rule of Civil Procedure 45(c)(1)
emphasizes that "[a] party or attorney responsible for
issuing ... a subpoena must take reasonable steps to
avoid imposing undue burden ... on a person subject to
the subpoena." Fed. R. Civ. P. 45(c)(1). Plaintiffs have
failed to honor this obligation, and requiring further
compliance with the subpoena would present an undue
burden for the VDOC. Given the amount of
information timely tendered, and especially
considering the VDOC's non-party status, the Court
will not require the VDOC to tender further
information in response to these discovery requests.
For the reasons discussed above, the Motion to
Quash (ECF No. 1) any information in addition to that
already tendered by the VDOC will be GRANTED.
An appropriate Order will accompany this
Memorandum Opinion.
Date: 11/3/17
Richmond, Virginia

/s/
M. Hannah Lauck
United States District Judge

93a

APPENDIX C
FILED: May 21, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-7594
(3:17-mc-00002-MHL)
VIRGINIA DEPARTMENT OF CORRECTIONS
Petitioner - Appellee
v.
RICHARD JORDAN; RICKY CHASE
Respondents - Appellants
STATE OF NEBRASKA; STATE OF ALABAMA;
STATE OF ARKANSAS; STATE OF ARIZONA;
STATE OF FLORIDA; STATE OF GEORGIA; STATE
OF IDAHO; STATE OF INDIANA; STATE OF
KANSAS; STATE OF LOUISIANA; STATE OF
MISSOURI; STATE OF NEVADA; STATE OF
OKLAHOMA; STATE OF SOUTH CAROLINA;
STATE OF SOUTH DAKOTA; STATE OF TEXAS;
STATE OF UTAH; STATE OF WYOMING
Amici Supporting Appellee

94a

ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge
Agee, Judge Keenan, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

95a

